Semiannual
Report to
the Congress

October 1, 1984 to
March 31, 1985

May 1, 1    5
                  General        Office of
                  Services       Inspector
                  Administration General Washington, DC 20405




             APR :3 a 1985

              Mr. Dwight Ink
              Acting Administrator
              General Services Administration
              Washington, D.C.  20405

              Dear tir. Ink:

              The enclosed Report to the Congress summarizes Office of
              Inspector General (OIG) activity over the six-month period ending
              March 31, 1985. It is submitted pursuant to the Inspector
              General Act of 1978, which requires that you submit this report
•             to the Congress within 30 days, along with any comments you wish
              to make.

              The report identifies major accomplishments in GSA program areas.
              For example, the leasing program has been improved substantially
              and the audit resolution and followup system is functioning
              effectively. In addition, GSA procurements continue to reflect
              negotiated pricing concessions that exceed the discounts initially
              offered by contractors. Each of these accomplishments underscores
              the benefits derived through the cooperative efforts of Agency
              management and the OIG.

              Working together, we can continue to improve the economy and
              efficiency of GSA operations.  I look forward to your support in
              the months to come.
              Sincerely,




       a..-~t2-
              CHARLES R. GILLUM
                                            t




              Acting Inspector General
              Enclosure




    GSA 00-8911503352
INTRODUCTION AND OVERVIEW

A. Introduction                                                Detailed information on these and other activities is pre-
This report, submitted pursuant to the Inspector Gener'll      sented in Section II.
Act of 1978, chronicles the activities of the General Serv-
ices Administration (GSA) Office of Inspector General
(OIG) between October 1, 1984 and March 31, 1985. It is        Federal Supply and Services
the thirteenth Report to the Congress since the appoint-
ment of GSA's first Inspector General.                         The majority of OIG audit effort within the Office of
                                                               Federal Supply and Services (FSS) was directed at the
                                                               small order supply distribution network and the multi-
B.Overview                                                     ple award schedule program (MASP). Specifically, we
This report summarizes DIG activities during the period        focused on evaluating self-service stores and customer
October 1, 1984 through March 31, 1985. It has been            supply centers, and continued to emphasize pre award
structured to correspond with the major functional ele-        reviews of the MASP.
ments of GSA.                                                  A joint audit and investigation of one self-service store,
                                                               assisted by the U.S. Air Force Office of Special Investiga-
I. Audit and Investigative Coverage                            tions, disclosed overpriced merchandise, over $24,300 in
                                                               missing inventory, and serious violations of procedures.
   of GSA Programs                                             FSS reassigned the store manager and suspended one
                                                               store employee for 5 days in response to this review.
Public Buildings Service
                                                               An internal audit of the MASP in one region identified
OIG internal audit coverage of the Public Buildings Serv-      multiple contract awards for identical items at signifi-
ice (PBS) focused on the leasing program. We performed         cantly different prices. In one instance, customer agen-
36 preaward advisory reviews of leases and issued a sum-       cies could have paid as much as $348 or as little as $200
mary report evaluating the deficiencies surfaced in l38        for the same item. In addition, an OIG preaward audit
pre award reviews performed between October 1982 and           and successful contract negotiations by FSS resulted in
May 1984.                                                      an avoidance of $9.7 million on a contract for security
In addition, we completed audits in five regions on lease      cabinets and files.
award procedures. The consolidated report summarizing          A joint investigation by the OIG and the FBI resulted in
these findings emphasizes that PBS continues to improve        the conviction of a GSA Deputy Regional Administrator
the leasing program. However, some of the same prob-           for accepting approximately $64,000 in bribes from an
lems disclosed in prior reviews persist. For example, re-      FSS contractor. The Deputy Regional Administrator,
alty specialists are not documenting lease files with suffi-   who had also served as the Acting Assistant Regional
cient information to support award decisions. We at-           Administrator for FSS and the Director of Quality Con-
tributed this problem to the lack of experience and train-     trol, was sentenced to 2 years in prison and fined
ing of realty specialists, coupled with inadequate super-      $30,000.
visory review.
                                                               An FSS contractor was convicted of altering laboratory
Another OIG audit disclosed a seriously deteriorated elec-     test results on materials supplied to GSA, and a city offi-
trical safety system in a Federal building. Due to 8 years     cial was convicted of stealing Government surplus prop-
of neglect, the system did not detect two electrical mal-      erty. In connection with this latter case, the city's mayor
functions. One led to a fire, while the other resulted in an   agreed in lieu of indictment to a civil penalty of $2,000
overheated transformer that could have exploded. Re-           and debarment from the donated property program.
gional PBS officials are currently implementing an ag-
gressive maintenance program for this building and             Detailed information on these and other activities is pre-
other buildings in that region.                                sented in Section III.
This period, a $276,435 civil settlement agreement was
reached with a former GSA buildings manager. The for-
mer GSA employee was involved in the award of $3.5             Infonnation Resources Management
million in contracts on which little or no work was per-
                                                               Within the Office of Information Resources Manage-
formed. He had previously been convicted on criminal
                                                               ment (OIRM), the OIG completed three regional reviews
charges of bribery, fraud, conspiracy, and obstruction of
                                                               of the Telephone Inventory Accounting System (TIAS). In
justice.
                                                               one review, we found that the TIAS inventory, which is
In addition, a joint investigation conducted by the OIG        used to verify telephone company bills, contained tele-
and the Federal Bureau of Investigation (FBI) resulted in      phone main lines (telephone numbers) that were either
the conviction of two Federal Protective Officers on the       disconnected, not in use, or possibly not needed. We esti-
non-work-related offense of conspiring to arrange a mar-       mated that these inactive telephone lines could be cost-
riage of convenience for a foreign national. The mar-          ing GSA as much as $1.8 million annually in terms of
riage, which was being arranged for money, would have          payments to telephone companies. GSA bills to customer
given the foreign national permanent resident status.          agencies could be as much as $2.4 million.
     The OIG also continued to emphasize its preaward audits          .42 indictments/informations/complaints on crimi-
     of OIRM's MASP. This period, through the cooperative               nal and civil referrals;
     efforts of OIRM and the OIG, $40.8 million was avoided
                                                                      • 30 successful criminal prosecutions;
     on a major procurement for general purpose automated
     data processing (ADP) equipment and software. Under              • 7 judgments and 4 settlements on civil referrals;
     the terms of the awarded contract, the Government is
                                                                      • 2 contractor suspensions and 12 contractor debar-
     receiving total pricing concessions of $62.3 million,
                                                                        ments on administrative referrals;
     based on estimated sales of $ 519. 5 million.
                                                                      • 33 reprimands, 22 suspensions, 21 terminations,
     Detailed information on these and other activities is pre-
                                                                        and 3 demotions on administrative referrals involv-
     sented in Section IV.
                                                                        ing GSA employees;
     Other GSA Coverage                                               • 13 Inspector General subpoenas; and
     Within the remaining programs and operations of GSA,             • 194 legislative and 187 regulatory initiatives re-
     the OIG issued 20 internal audit reports evaluating such           viewed.
     diverse activities as Presidential library operations, con-    Detailed information on these and other activities is pre-
     sultant contracts, audit resolution and followup, contract     sented in Sections VI and VII.
     clearance functions, and imprest funds. In one review,
     the OIG found that GSA has been generally successful in
     developing, implementing, and administering an audit
     resolution and followup system that conforms to the re-        OIG Productivity
     quirements established by the Office of Management
     and Budget                                                     As noted above, in critical areas of our performance we
                                                                    compute OIG productivity based on actual staffyears -
     Detailed information on these and other activities is pre-     full-time equivalent (FTE) positions - incurred. Since
     sented in Section V.                                           these data are not influenced by fluctuating staffing lev-
                                                                    els, they are an excellent mechanism for measuring OIG
                                                                    performance over time.
     2. OIG Accomplishments and                                     The following table presents these productivity data for
        Productivity                                                Fiscal Years 1982, 1983, and 1984, as well as for this re-
     The OIG tracks its accomplishments both on an aggre-           porting period. The table shows that:
     gate basis and, in critical areas of our performance, on         • Costs recovered/avoided per operations employee
     the basis of actual staffyears incurred. Calculating ac-           hit a new high during the reporting period. As a
     complishments on this latter basis results in productivity         result, the OIG achieved a return of $10.89 for every
     data that are not influenced by fluctuating staffing levels.       $1 budgeted for OIG operations this period. Returns
                                                                        achieved during Fiscal Years 1982, 1983, and 1984
     Overall OIG Accomplishments                                        were $5.61, $6.65, and $9.93, respectively.
     OIG accomplishments this period included:                        ., OIG productivity in the other categories was lower
                                                                         this period than in Fiscal Year 1984, but still was not
       ., 328 audit reports;
                                                                         inconsistent with the general trend toward in-
       ., $68,731,343 in recommendations for more efficient              creased productivity that has been building since
          use ofresources and $2,725,116 in recovery recom-              Fiscal Year 1982. We attribute the slowdown from
         mendations;                                                     Fiscal Year 1984 to a variety of factors, including: the
                                                                         dislocations and inefficiencies that are the inevitable
       ., $114,032,556 in management commitments to
                                                                         result of our efforts to reduce OIG staffing through
         more effiCiently use resources;
                                                                         attrition (see Budget Issues in Section I); the residual
       ., $4,498,239 in management commitments to re-                    effects of our lack of travel funds during the second
         cover funds, court-ordered recoveries, and investiga-           half of Fiscal Year 1984, which forced us to initiate
         tive recoveries;                                                local audits and investigations and limit travel to
                                                                         only priority efforts; and output fluctuations reflect-
       ., 336 investigative cases opened and 383 closed;
                                                                         ing some exceptional circumstances in Fiscal Year
       • 41 case referrals accepted for criminal prosecution             1984 and some changes in management emphasis
         and 7 case referrals accepted for civil litigation;             during Fiscal Year 1985.




ii
                                                                                                           First Half
     Productivity Factor                                          FY82          FY83             FY84       FY85

     Total costs recovered/avoided* per operations
       employee .......................... .                    $242,252 $352,910            $522,688      $653,422
     Recommended cost avoidance and recovery per
       auditor ............................ .                   $498,533 $587,875 $1,357,104               $566,396
     Audit reports per auditor ............... .                   2.4      3.2       3.1                    2.6
     Referrals (criminal, civil, and administrative) per
       investigator ......................... .                     2.9          5.9             8.4           7.8
     Criminal referrals per investigator ........ .                 0.8          2.2             2.3           2.0
     Employee actions (reprimands, terminations,
       suspensions, and demotions) per investigator                 0.9          1.2              1.6          1.5

     *Includes management commitments, court-ordered recoveries, and investigative recoveries.




3. Prevention Activities                                               ity by a multidisciplinary team comprised of audi-
                                                                       tors, investigators, and inspectors.
As detailed in Section VIII, the ~IG's program to prevent
fraud, waste, and mismanagement encompasses a wide                   • Integrity Awareness briefings for 870 GSA em-
variety of activities. Highlights of our efforts during the            ployees.
period include:
                                                                     • Receipt of 521 Hotline calls/letters and referral of 147
  .. All operational survey   of a supply distribution faciI-          of these complaints for further action .




                                                                                                                                  iii
')
TABLEOFC
                                                 Page                                                        Page
INTRODUCTION AND OVERVIEW                                  SECTION VI - STATISTICAL SUMMARY
                                                           OF OIG ACCOMPLISHMENTS .............. 19
REPORTING REQUIREMENTS ............. vi
                                                             A. OIG Accomplishments .................. 19
SECTION I - ORGANIZATION, STAFFING,                          B. Summary Statistics ..................... 20
AND BUDGET ........................... I
                                                           SECTION VII - REVIEW OF LEGISLATION
  A. Organization ......................... I
                                                           AND REGULATIONS ..................... 26
  B. Office Locations ....................... 1
                                                             A. Legislation/Regulations Reviewed ......... 26
  C. Staffing and Budget .................... 1
                                                             B. Significant Comments .................. 26
  D. Budget Issues ......................... 1
  E. Personnel Issues ....................... 2            SECTION VIII - OTHER DIG ACTIVITIES ....           28
                                                             A. OIG Prevention Program ................       28
SECTION II - PUBLIC BUILDINGS
                                                             B. OIG Management Initiatives .............      29
SERVICE ................................               3
                                                             C. Projects Sponsored by the PCIE ...........    30
  A. Overview of OIG Activity ............... .        3
  B. Significant Audits and Investigations ...... .    3
  C. Significant Pre award Audits ............. .      5
  D. Statistical Highlights .................. .       5
  E. Significant Audits From Prior Reports             6
SECTION III - FEDERAL SUPPLY                               APPENDICES
AND SERVICES ..........................                9
  A. Overview of OIG Activity ................         9   APPENDIX I - AUDIT REPORT REGISTER               .. 32
  B. Significant Audits and Investigations .......     9   APPENDIX II - DELINQUENT DEBTS ...... 45
  C. Significant Pre award Audits ..............      II
  D. Statistical Highligh;:s ...................      11
  E. Significant Audits From Prior Reports ......     12
SECTION IV - INFORMATION RESOURCES
MANAGEMENT ..........................                 I3
  A. Overview of OIG Activity ................        13   LIST OF TABLES
  B. Significant Audits ......................        13
                                                           1. Summary of OIG Audits ................... 19
  C. Significant Pre award Audits ..............      14
                                                           2.   Resolution of OIG Audits .................. 20
  D. Statistical Highlights ...................       14
                                                           3.   Resolution Decisions on OIG Audits .......... 21
  E. Significant Audits From Prior Reports ......     15
                                                           4.   Summary of Contract Audit Settlements ...... 22
SECTION V - OTHER GSA COVERAGE ......                 16   5.   Investigative Workload .................... 23
  A. Overview of OIG Activity ................        16   6.   Distribution of Cases Opened This Period ..... 23
  B. Significant Audits ......................        16   7.   Summary of OIG Subject Referrals ........... 24
  C. Statistical Highlights ...................       17   8.   Summary of Criminal and Civil Actions ...... 25
  D. Significant Audits From Prior Reports ......     17   9.   Criminal and Civil Recoveries ............ .. 25




                                                                                                                    v
     REPORTING REQUIREMENTS
     The table below cross-references the reporting require-   No. 96-829 relative to the 1980 Supplemental Appro-
     ments prescribed by the Inspector General Act of 1978     priations and Rescission Bill is also cross-referenced to
     to the specific pages where they are addressed. The in-   the appropriate page of the report.
     formation requested by the Congress in Senate Report


                                            SOURCE                                                  PAGE

         Inspector General Act
         1. Section 4(a)(2) - Review of Legislation and Regulations ............ .                   26
         2. Section 5(a)(1)-Significant Problems, Abuses, and Deficiencies ...... .              3,9,13,16
         3. Section 5(a)(2)- Recommendations With Respect to Significant Problems,
            Abuses, and Deficiencies ................................... .                      3,9,13, 16
         4. Section 5(a)(3)- Prior Recommendations Not Yet Implemented ...... .                 6,12,15,17
         5. Section 5(a)(4)- Matters Referred to Prosecutive Authorities ........ .                 23
         6. Sections 5(a)(5) and 6(b)(2) - Summary of Instances Where Information
            Was Refused ............................................ .                       None This Period
         7. Section 5(a)(6) - List of Audit Reports .......................... .                   32
         Senate Report No. 96-829
         1. Resolution of Audits ....................................... .                           20
         2. Delinquent Debts ......................................... .                             45




vi
SECTION I -- ORGANIZATION, STAFFING,
ANDBUDGET


Pursuant to the Inspector General Act of 1978, an Office of        cago, Kansas City, Fort Worth, Denver, San Francisco,
Inspector General (OlG) was established within the General         Auburn, and Washington, nc. Resident investigations
Services Administration (GSA) on October 1, 1978. As cur-          offices are located in Cleveland, S1. Louis, Los Angeles,
rently configured, the OIG consists of six offices that function   and San Juan, Puerto Rico. The San Juan office includes
cooperatively to perform the missions legislated by the Con-       an audit capability.
gress.
                                                                   c. Staffing and Budget
A. Organization                                                    The approved Fiscal Year (FY) 1985 budget for the GSA
                                                                   OIG is approximately $21.3 million. Approximately
The OIG utilizes a functional organizational structure to
                                                                   $10.9 million was available for obligation during the re-
provide nationwide coverage of GSA programs and activ-
                                                                   porting period.
ities. The organization consists of:
                                                                   The OIG's approved staffing level is 444 full-time equiv-
  • The Office of Audits, a multidisciplinary unit
                                                                   alent (FTE) positions. As of March 31, 1985, OIG staffing
    staffed with financial and technical experts who
                                                                   consisted of 396 permanent and 3 temporary employees.
    provide comprehensive internal (manageme:q.t) and
                                                                   However, on April 1, 1985, five OIG employees and appro-
    external (contract) audit coverage. Headquarters di-
                                                                   priat~ funding were permanently transferred to the
    visions, structured to correspond to GSA's major
                                                                   newly formed National Archives and Records Adminis-
    functional areas, direct and coordinate the audit
                                                                   tration.
    program principally performed by 11 field audit of-
    fices.
                                                                   D. Budget Issues
  • The Office of Investigations, an investigative unit
    that manages a nationwide program to prevent and               This period, the FY 1986 budget reductions mandated by
    detect illegal and/or improper activities involving            the "passback" created a major budget issue for the
    GSA programs, personnel, and operations. Opera-                OIG. Under the passback, OIG appropriations in
    tions officers at headquarters coordinate the inves-           FY 1986 will be $2.2 million less than the FY 1985 appro-
    tigative activity of 11 field investigations offices and       priation level, an<;l $5.1 million less than the appropria-
    4 resident offices.                                            tion level requested for FY 1986. The mandated reduc-
                                                                   tions are in OIG staffing and related administrative areas.
  • The Office of Counsel to the Inspector General,
    an in-house legal staff that provides opinions and             While the passback authorizes 444 FTEs for the OIG in
    advice on matters under OIG review. These attorneys            FY 1986, the passback appropriation level will fund only
    also manage the civil referral system, review exist-           381 to 404 FTEs. This period, the OIG was forced to take
    ing and proposed legislation and regulations, and              action to ensure that we are at a fundable staffing level by
    prepare OIG subpoenas as required.                             the start ofFY 1986. This involved: cancelling 18 vacancy
                                                                   announcements; filling subsequent professional vacan-
  • The Office of Policy, Plans, and Management                    cies on an extremely selective basis; and filling subse-
    Systems, a centralized planning and assessment                 quent clerical vacancies with temporary employees. As
    function that oversees and evaluates the operations            the result of these measures, OIG staffing decreased from
    of the other OIG components, coordinates special-              419 permanent employees as of September 30, 1984 to
    ized fraud prevention activities, and provides data            396 permanent employees as of March 31, 1985. Contin-
    systems support.                                               ued attrition will be necessary during the second half of
  .. The Office of Executive Director, an administra-              FY 1985 to ensure that we start FY 1986 at a fundable
     tive support function that handles budgetary, finan-          staffing level.
     cial, and administrative matters for the OIG.                 In addition to staffing decreases, the passback requires
                                                                   Significantly reduced expenditures in FY 1986 for travel,
  • The OIG Personnel Office, a staff unit that handles
                                                                   equipment rentals, office space, training, computer serv-
    personnel and employee development activities for
                                                                   ices, and Defense Contract Audit Agency audits. Based
    theOIG.
                                                                   on FY 1984 statistics, we estimate that the programmatic
                                                                   impact of the pass back in FY 1986 will be on the order of:
B. Office Locations                                                  • 82 fewer audits and 109 fewer investigations;
The OIG is headquartered in Washington, nc., at GSA's
                                                                     .. 112 fewer criminal, civil, and administrative refer-
Central Office building. Field audit and investigations
                                                                        rals; and
offices are maintained in each of GSA's regional head-
quarters- Boston, New York, Philadelphia, Atlanta, Chi-              • $36 million less in cost avoidances and recoveries.
                                                                                                                                  1
                                                                 Special emphasis was placed on expanding in-house
    E. Personnel Issues                                          training courses developed and taught by OIG staff mem-
                                                                 bers. Between October 1, 1984 and March 31, 1985, OIG
    Faced with the staffing decreases required by the pass-      staff members presented courses on microcomputer ap-
    back, the OIG's major personnel concern has been with        plications in audits and investigations; audit software
    enhancing the quality and effectiveness of our reduced       packages; multiple award schedule contract audit tech-
    staff. This period, for instance, the OIG moved forward in   niques; and the OIG's management information system.
    the implementation of its employee development pro-          In addition, a pre award contract audit training course
    gram. Training plans for both the Office of Audits and       was developed for presentation during the next report-
    Investigations were developed, each emphasizing the          ing period. The course provides detailed procedures for
    training needs of entry level personnel. In addition, 185    verifying contractor cost and pricing data, emphasizing
    OIG employees attended formal courses in work-related        construction contracts and multiple award schedule con-
    disciplines.                                                 tracts.




2
SECTION IT -- PUBLIC BUILDINGS SERVICE
The Public Buildings Service (PBS) manages much of the           The OIG also completed 172 investigative cases involving
Federal Government's real estate assets nationwide. Its re-      PBS programs, operations, and employees. Notably; one
sponsibilities extend from constructing, purchasing, and         OIG investigation, conducted jointly with the Federal
leasing space for Government use to maintaining and pro-         Bureau of Investigation (FBI), resulted in the conviction
tecting that space. In the first half of Fiscal War 1985, the    of two Federal Protective Officers on the non-wor:k-re-
total available funding authority of the Federal Buildings       lated offense of conspiring to arrange a marriage of con-
Fund was over $1.8 billion. During the same period, PBS          venience. The marriage would have given permanent
obligated almost $1.2 billion of these funds.                    resident status to a foreign national. One of the officers
                                                                 has since resigned from GSA. The other was terminated.
Commensurate with this level of activity, the OIG devoted
some 59,165 direct staffhours pursuing 555 audit and inves-
tigative assignments. These figures reflect over 38 percent of
total OIG direct staffhours and approximately 44 percent of      B. Significant Audits and
all work assignments.
                                                                    Investigations
                                                                 This section summarizes significant internal audits and in-
A. Overview of OIG Activity                                      vestigations dealing with PBS. Significant preaward contract
The OIG focused its internal audit coverage of PBS on the        audits are presented in Section C.
leaSing program. This period, we issued a consolidated
report summarizing the results of five regional reviews          More Improvements Needed in Lease
of lease award procedures. In addition, we evaluated 36          Award Procedures
proposed leasing actions and issued a summary report
                                                                 OIG reviews of lease award procedures in five GSA re-
evaluating the deficiencies surfaced through 138 pre-
                                                                 gions disclosed substantial improvements in the leasing
award reviews issued between October 1982 and May
                                                                 program since our last review of the leasing process. Rep-
1984. The purpose ofthis evaluation, as discussed in Sec-
                                                                 resentative improvements include: reductions in the
tion VIII, was to identify any systemic problems in the
                                                                 number of leases, the amount of space leased, holdover
lease award process.
                                                                 tenancies, and the time to award leases; inclusion ofleas-
Although we noted that PBS continues to make improve-            ing guidelines in the Federal Acquisition Regulation and
ments in the leasing program, some recurring problems            the General Services Acquisition Regulation; implemen-
still exist. For example, lease files still do not contain       tation of standard lease file procedures; and initiation of
documentation such as analyses, independent esti-                preaward audits of large dollar lease proposals.
mates, and market surveys, that fully support award de-
                                                                 However, significant problems still adversely affect GSA's
cisions. The fundamental cause appears to be the lack of
                                                                 capability to assure that lease award procedures protect
training and experience of realty specialists, coupled
                                                                 the Government's interests and that lease awards are eco-
with inadequate supervisory reviews of lease files.
                                                                 nomical and timely. Our reviews found, for example, that
PBS has taken steps to remedy this recurring problem. In         realty specialists are still not documenting the lease files
addition to implementing standardized procedures for             with all the. information needed to support the actions
developing and maintaining lease files, major efforts are        taken. Without documentation, such as negotiation
underway to hire some 50 new leasing specialists and             memoranda, independent cost estimates, and market
establish career development and training programs.              surveys, there are no assurances that prudent awards
These positive steps, coupled with actions already taken         have been made.
in other areas, should have a favorable impact on the
                                                                 Our reviews also disclosed that the computer-generated
leasing program.
                                                                 Solicitations for Offers (SFOs), designed to promote uni-
Other internal audits evaluated repair and alteration            formity in solicitations, contain unclear, unnecessary;
projects. concession contracts, energy conservation, and         and/or contradictory clauses. llJ. fact, many of GSA's re-
buildings management operations. Relative to buildings           alty specialists and contracting officers do not fully un-
management, we identified a potentially serious safety           derstand some of the clauses. Moreover, in some
problem in a Federal building. Due to 8 years of neglect,        instances, the clauses fail to achieve the desired objec-
the building's electrical safety system was so deteriorated      tives because of their ambiguity.
that two relatively serious electrical malfunctions were
                                                                 In our consolidated report dated February 15, 1985, we
never detected. Regional PBS officials are currently im-
                                                                 offered 16 recommendations to the Commissioner, PBS,
plement ing an aggressive maintenance program for this
                                                                 and 4 recommendations to the Acting Administrator to
building and other buildings in the region.
                                                                 correct these and other deficiencies. Some of the more
The OIG also performed 84 contract audits of PBS pro-            significant recommendations included: establish a con-
curement actions. Collectively; we recommended cost              tinuing training curriculum for realty specialists; review
avoidances of $23.4 million and recoveries of over               current SFO clauses and, where appropriate, restate or
$182,200. Notably; one audit of a proposed rent increase         clarify confusing or ambiguous clauses; refine the pres-
found that the rent for the final 5-year lease period            ent time-measuring system for lease awards; and ensure
should actually decrease, rather than increase by the            separation of the award and administration functions
$4 million proposed by the lessor.                               within the leasing area.                                       3
    The action plans for implementing the recommenda-              underway to correct the identified problems and to im-
    tions in the final report are due April 16, 1985.              plement an aggressive maintenance program.
                                                                   The action plans for implementing the recommenda-
    $276,435 Civil Settlement                                      tions in the final report are due April 1, 1985.
    On November 5,1984, attorneys from the Justice Depart-
    ment and the GSA OIG reached a civil settlement                GSA Employees Convicted for Alien
    agreement with a former GSA buildings manager. Under           Marriage Scheme
    the terms of the settlement, the former employee agreed
    to pay the Government $276,435.                                Based on a referral from GSA management, the GSA OIG
                                                                   and the FBI investigated an allegation that a Federal Pro-
    GSA OIG inspectors assisted the FBI in an investigation        tective Officer (FPO) conspired to arrange a marriage of
    disclosing that the former employee was involved in the        convenience between another FPO and a foreign na-
    award of more than 2,000 contracts, valued at $ 3.5 mil-       tional in exchange for money. The marriage would have
    lion, for repair and maintenance of Federal buildings on       given permanent resident alien status to the foreign na-
    which little or no work was performed. The investiga-          tional.
    tion also found that he had received bribes and kickbacks
    of $614,000 in return for facilitating the rigging of bids     The officer who conspired to arrange the marriage was
    and waiving the Government's right to performance by           convicted in Federal District Court on one count of con-
    the contractors.                                               spiracy; on January 17, 1985, he was sentenced to 2 years
                                                                   imprisonment (18 months suspended) and placed on 18
    In 1980, the former buildings manager had pled guilty to       months probation. The other FPO pled guilty to one
    criminal charges of bribery, fraud, conspiracy, and            count of conspiracy and one count of false statements on
    obstruction of justice. He served a 31f2 year prison term.     November 16, 1984. He was sentenced to 18 months im-
                                                                   prisonment on each count (suspended), 18 months pro-
    Deteriorated Electrical Safety System                          bation, and 200 hours of community service.

    During a review of buildings management operations at          One officer has resigned from GSA and the other has
    a Federal building, the OIG found that the building's elec-    been terminated. The foreign national is a fugitive.
    trical safety system had not been inspected or repaired in
    8 years. As a result, the system was so deteriorated that      Protecting the Government's Right to a
    the switchgear, which are designed to automatically            Corporation's Assets
    shut off power in the event of electrical malfunction, did
                                                                   In an audit of the agreement between GSA and a non-
    not perform this function consistently.
                                                                   profit corporation formed to provide Government em-
    The audit disclosed that the last known maintenance            ployees with food and other services, the OIG raised is-
    and inspection tests were performed by a contractor in         sues and made recommendations pertaining to: the
    1976. The contractor's report characterized system oper-       Government's right to this corporation's assets in the
    ation as extremely poor at best and recommended cor-           event of its dissolution; the legality of monies reserved
    rective action in three specific areas. No corrective action   for the corporation's use in purchasing/replacing Gov-
    was taken and the system has continued to deteriorate.         ernment-owned equipment; and GSA oversight of the
                                                                   corporation's operations. At the time of our audit, the
    Between October 1983 and August 1984, two electrical
                                                                   corporation's net worth was $21 million.
    malfunctions occurred; neither was detected by the
    switchgear. The first resulted in a fire, while the second     The OIG found that the corporation's Certificate of Incor-
    incident, an overheated transformer, was discovered by a       poration, which presently designates the Government as
    building electrician. Had the electrician not intervened,      the residual donee for its assets, can be amended by the
    the transformer, which is filled with a coolant con-           corporate Board of Trustees without Government ap-
    taining polychlorinated biphenyls (PCB), could have ex-        proval or notification. Since the corporation originally
    ploded and burst into flames. Thus, a serious threat to        enjoyed sole source contracts with the Government, and
    building occupants and the general population in the           benefited from expenditures of Federal funds for space
    area of the building could have resulted.                      and equipment, we felt action was necessary to protect
                                                                   the Government's right to the corporation's assets. In re-
    In our report dated January 28, 1985, we recommended
                                                                   sponse to our recommendation for periodic reviews to
    that the Assistant Regional Administrator, Public Build-
                                                                   detect any substantial changes in the Certificate of incor-
    ings and Real Property, repair and/or replace all known
                                                                   poration, GSA's General Counsel undertook such a re-
    faulty breakers and other switchgear defects; identify
                                                                   view and determined that no substantial changes had
    other defective electrical safety equipment and repair/
                                                                   occurred.
    replace it; and maintain electrical safety equipment in
    accordance with the GSA handbook. In addition, since           We also questioned and asked for a General Accounting
    information obtained during the audit indicated that the       Office (GAO) decision on the legality of a reserve provi-
    maintenance of electrical systems at two other buildings       sion in the Master Agreement between GSA and this
    had not been performed, we recommended that the As-            corporation. Under this provision, monies are reserved
    sistant Regional Administrator expedite necessary              for the corporation's use in purchasing/replacing Gov-
    maintenance and repairs at other buildings where safety        ernment-owned equipment. Subsequent to the audit,
    equipment maintenance has been neglected.                      GAO advised that the reserve provision was not illegal.
    The Regional Administrator agreed with the recommen-           Finally. we found that GSA needs to adopt a strong over-
4   dations in our draft report. He stated that action was         sight posture relative to corporate operations. Whereas
the Government was previously the corporation's sole              lessor's proposal that these rent payments be increased
customer, the corporation is now diversified. GSA there-          by $4 million.
fore needs to ensure that the original purpose for which          In our report dated December 19, 1984, we advised the
this corporation was formed is not modified in a manner           contracting officer of the audit findings. The audit was
jeopardizing the long-range interests of the Government.          resolved on January 16, 1985; the contracting officer
Our report was issued on October 31, 1984. We are await-          agreed to seek the full amount questioned in negotia-
ing the action plans for implementing our recommenda-             tions with the contractor.
tions relative to continuing reviews of the corporation's
Certificate of Incorporation and oversight of the corpora-        $3.8 Million of a Contractor Claim
tion's operations.                                                Questioned
c. Significant Preaward Audits                                    At the request of the Regional Administrator, the OIG
                                                                  audited a contractor claim for increased costs allegedly
The DIG's preaward audit program provides information to          arising from Government-caused delays on a building
contracting officers for use in negotiating contracts. The pre-   renovation and alteration project. The contractor alleged
decisional, advisory nature of preaward audits distinguishes      that change orders and stop work orders extended the
them from other audits.                                           contract performance period by 1,095 days, resulting in
                                                                  increased costs of $4.2 million.
$4.4 Million of Proposed Rent Increase
                                                                  In the December 20, 1984 audit report, we advised the
Questioned                                                        contracting officer that the cost and pricing data sub-
The OIG audited a lease escalation proposal to determine          mitted by the contractor were inadequate in several re-
if the proposed operating expenses and real estate tax            spects. We also advised that, if the contractor were paid
escalations were allowable under the terms of the lease.          the total amount claimed, the firm would realize a 93
The proposal submitted by the lessor involved a $4 mil-           percent profit on the contract. We questioned $3.8 mil-
lion rent increase over the final5-year period of the lease.      lion of the $4.2 million, principally in the following cost
                                                                  categQries: labor inefficiency, overhead, finance costs,
During audit, we examined the operating costs for the
                                                                  subcontractor costs, and profit.
previous 5-year lease period, as well as the escalation
proposal itself. We found that, in certain categories of          On January 8, 1985, the report was resolved. As a result
operating costs, the lessor's costs had decreased signifi-        of the audit, management made a commitment to avoid
cantly from the amounts provided for in the negotiated            $3.8 million.
base rate for the previous 5-year lease period. Even after
allowing for cost escalation in other categories, this re-
sulted in our questioning proposed 5-year costs of
                                                                  D. Statistical Highlights
$4,353,390. Thus, GSA's rent payments during the new              The following table compares DIG activity and accom-
5-year lease period would actually be $322,516 less than          plishments within PBS to the overall GSA totals for the
in the previous 5-year period - in contrast with the              period.


     Activity                                                                          PBS              All GSA
    Audit Reports Issued ................................. .       155                                   326
    Recommended Cost Avoidance ......................... . $23,958,376                               $68,731,343
    Recommended Cost Recovery .......................... .        $430,930                            $2,725,116
    Management Commitments to Avoid Costs ................ . $18,085,349                            $114,032,556
    Management Commitments to Recover Funds .............. .      $473,822                            $2,527,589
    Percentage of Recommended Cost Avoidance
      Agreed to by Management ........................... .         80%                                     52%
    Percentage of Recommended Cost Recovery
      Agreed to by Management ........................... .         57%                                     24%
    Unresolved Audits Older Than 6 Months
      (Excluding Preawards) ............................... .        3                                       3
    Implementation Reviews Finding
      Unimplemented Recommendations ..................... .          6                                      7
    New Investigative Cases ............................... .      162                                    336
    Criminal Referrals (Subjects) ............................ .    48                                    152
    Civil Referrals (Subjects) ............................... .     2                                     15
    Administrative Referrals (Subjects) ....................... .  166                                    354
    Suspension/Debarment Referrals (Subjects) ................ .    10                                     41
    Indictments/Informations/Complaints .................... ,.     17                                     42
    Successful Criminal Prosecutions ........................ .     12                                     30
    Civil Settlements/Judgments ........................... .        3                                      11
                                                                                                                                5
    E. Significant Audits                                         2. Significant Audits Not Being
       From Prior Reports                                            Implemented According to
                                                                     Established Milestones
    Under GSA's audit resolution system, the OIG is responsible
    for ensuring resolution of audit recommendations, while the
    Office of Audit Resolution, Office of Policy and Management   Fire and Life Safety Systems
    Systems, is responsible for ensuring implementation of re-    Period First Reported: October 1, 1983 to March 31, 1984
    solved audit recommendations. That office therefore fur-
    nished the status information on implementation presented     A series of seven OIG reviews identified deficiencies in
    herein.                                                       fire and life safety systems in GSA-controlled space. As of
                                                                  March 31, 1985: implementation had been completed on
    Fifteen audits highlighted in prior Reports to the Congress   one report; implementation was overdue on three re-
    require action by PBS management before they are fuily im-    ports; and implementation was proceeding according to
    plemented. Two reports are unresolved, four are not being     established milestones on the remaining three reports.
    implemented in accordance with established milestones, and    This section discusses the three overdue audits. The three
    the remaining nine are being implemented in accordance        audits proceeding according to established milestones
    with established milestones.                                  are discussed in the next section.
                                                                  The first overdue report has one outstanding recommen-
                                                                  dation; it involves determining the extent of contractor
    1. Unresolved Significant Audits                              liability for boiler damage. The recommendation had
                                                                  an implementation date of December 31, 1984. As of
    Inspection of the Lease Construction of a                     March 31, 1985, the recommendation had not been im-
    Laboratory Facility                                           plemented and no extension had been granted.
    Period First Reported: October 1,1982 to March 31,1983        The second overdue report contains two unimplemented
    This March 31, 1983 review disclosed that inadequate          recommendations; they involve correcting maintenance
    contract administration and a lack of technical input in      deficiencies and correcting asbestos hazards. The first
    the conceptual, design, and construction phases of a lab-     was scheduled for completion by November 30, 1984. As
    oratory facility has resulted and/or will result in Govern-   of March 31, 1985, the recommendation had not been
    ment losses of over $1.5 million. As of March 31, 1985,       implemented and no extension had been granted. The
    this audit was still umesolved.                               second recommendation is scheduled for completion by
                                                                  September 30, 1985.
    1\velve of the 18 recommendations in the report have
    been resolved; however, formulation of action plans on        Relative to the third overdue report, the OIG issued an
    the remaining recommendations has been deferred               implementation review on October 23, 1984. Altho~gh
    pending the outcome of Grand Jury proceedings. These          the Office of Audit Resolution had advised us that all of
    recommendations have been removed from the audit              the recommendations contained in the report had been
    resolution process because of the Grand Jury involve-         fully implemented as of April 4, 1984, we found that ac-
    ment.                                                         tions on two of the five recommendations were not in
                                                                  accordance with the action plans. The Regional Admin-
                                                                  istrator has since provided revised action plans for these
    Improvements to the Building                                  two recommendations; we are evaluating their respon-
    Delegations Program                                           siveness.
    Period First Reported: April 1, 1984 to September 30, 1984
    This September 26, 1984 review disclosed the need to
    improve GSA's program for delegating buildings man-
    agement responsibilities to the occupying agency. As of       Application of the ICB System Concept
    March 31, 1985, this audit was unresolved.                    Period First Reported: October 1,1982 to March 31,1983
    Although the Commissioner, PBS, provided action plans         This review of the mandatory use of Integrated Ceiling
    for the recommendations in this report, resolution has        and Background (ICB) systems in Federal facilities found
    been deferred until the Task Force on Delegations, com-       that this policy created customer dissatisfaction and
    prised of high level officials from GSA and other agen-       wasted millions of dollars. The report contained six rec-
    cies, makes its recommendations to the Administrator,         ommendations; four are implemented.
    GSA. This decision was made because the Task Force
    recommendations could substantially affect the actions        The remaining recommendations involve implementa-
    proposed by PBS in response to our review.                    tion of an acoustics training program and development
                                                                  of guidelines for decisions on partitioning open-space
    The Task Force is scheduled to make its recommenda-           areas. Both recommendations were originally scheduled
    tions by April 12, 1985. Once these recommendations are       for implementation in March 1984. These dates were re-
    evaluated by management, revised action plans are due.        negotiated to May 1984.




6
In response to an April 1984 request from PBS to revise       GSA Efforts to Reduce Space Rental Costs
the action plans, the OIG and PBS entered into discus-
sions relative to the actions to be taken and an informal     Period First Reported: October 1, 1983 to March 31, 1984
agreement was reached. As of March 31, 1985, the OIG          This review of GSA efforts to reduce Government space
still had not received revised action plans from PBS.         rental costs found that the amount of leased office space
                                                              grew by some 13 9,000 square feet and rental costs rose by
3. Significant Audits Being                                   more than $ 51 million despite concurrent reductions in
                                                              the Federal civilian work force. We made 15 recommen-
   Implemented According to                                   dations to correct the identified deficiencies; 12 are im-
   Established Milestones                                     plemented.
                                                              The remaining three recommendations involve: (1) re-
Effective Lease Enforcement Efforts                           evaluation of a commitment of space; (2) utilization sur-
Are Needed                                                    veys of the occupied space in selected buildings; and
Period First Reported: April 1, 1984 to September 30, 1984    (3) development of space reduction and backfill plans.

This audit disclosed a series of deficiencies, including      The first recommendation is due for implementation by
Government payments for utilities and rent on space           August 31, 1985. The second recommendation is par-
contracted to a private concern and for overtime services     tially implemented - only one of the selected buildings
that were neither needed nor provided. The report con-        has not been surveyed; the scheduled completion date is
tained 16 recommendations to correct the identified defi-     September 30, 1985. The remaining recommendation
ciencies.                                                     was originally due for implementation by January 31,
                                                              1985. An extension was granted to March 31, 1985. As of
On March 29, 1985, the audit was resolved. Accordingly,       March 31, 1985, documentation supporting its imple-
it has just been referred to the Office of Audit Resolution   mentation had not been received.
for tracking of implementation actions.

Excessive Energy Consumption
Period First Reported: April L 1984 to September 30, 1984
                                                              Fire and Life Safety Systems
                                                              Period First Reported: October 1,1983 to March 31, 1984
This review of the heating and cooling operations at a
Federal office building identified an estimated $203,000      A series of seven DIG reviews identified deficiencies in
in wasted energy annually. The report contained ten rec-      fire and life safety systems in GSA-controlled space. One
ommendations; six have been implemented.                      report was fully implemented as of March 31, 1985; three
                                                              reports, as previously reported, contain recommenda-
The remaining four recommendations involve: (1) clean-
                                                              tions that are not being implemented in accordance with
ing and purging of perimeter heating/cooling units;
                                                              established milestones. The remaining three reports
(2) restoration of tne pneumatic control system; (3) re-
                                                              contained 10 recommendations; 5 are implemented.
duction of lighting levels; and (4) restoration of the ele-
vator control program. Recommendations (1) and (2)            Implementation of the other five recommendations is
were originally due for implementation by August 31,          generally proceeding in accordance with the action
1984 and December 1, 1984, respectively. Through a se-        plans, although delays have been experienced. Full im-
ries of extensions, both recommendations are now              plementation is scheduled for various dates between
scheduled for implementation by April 15, 1985.               June 1985 and June 1987.
The third and fourth recommendations were originally
scheduled for completion by November 15, 1984 and Oc-
tober 1, 1984, respectively. Extensions to May 15, 1985
and April 15, 1985, respectively, were granted after an       Opportunities for Savings Exist Through
extended completion date of January 15, 1985 could not        Energy Conservation
be met.
                                                              Period First Reported: October 1,1983 to March 31, 1984
Fire and Ufe Safety Systems                                   1\Ivo OIG reviews identified annual savings of $477;000,
                                                              mostly available through simple modifications to equip-
Period First Reported: April L 1984 to September 30, 1984
                                                              ment and operating procedures at three Federal build-
This consolidated report identified the need for GSA ac-      ings. All of the recommendations in one report have
tion to ensure the proper functioning of fire and life        been implemented. The other report contained 16 rec-
safety systems in Federal buildings throughout the coun-      ommendations; 9 have been implemented.
try. The report contained ten recommendations; none
                                                              The seven unimplemented recommendations generally
are implemented.
                                                              involve specific actions to reduce energy consumption
Implementation is proceeding according to schedule. All       and better manage energy costs. All implementation ac-
action is scheduled for completion by June 30, 1985.          tion is scheduled for completion by March 31, 1986.




                                                                                                                           7
    Implementation of the Public Buildings                     cedures for outleasing of commercial malls. Recommen-
    Cooperative Use Act                                        dation (I) was originally due for implementation in Au-
                                                               gust 1983. Successive extensions to December 1983, June
    Period First Reported: October 1, 1982 to March 31, 1983   1984, August 1984, December 1984, February 1985, and
                                                               March 1985 have been granted.
    Our review disclosed a number of problems associated       The second and third recommendations were originally
    with GSA's implementation of the Public Buildings Co-      scheduled for completion in May and September 1983,
    operative Use Act of 1976. The report contained 18 rec-    respectively. Both dates have been successively renegoti-
    ommendations; 15 are implemented.                          ated to October 1983, April 1984, October 1984, Decem-
                                                               ber 1984, and March 1985.
    The remaining three recommendations involve: (I) de-
    velopment of policy on outleasing; (2) assignment of       As of March 31, 1985, the Office of Audit Resolution had
    qualified experts on outleasing projects involving com-    not received documentation confirming that any of
    mercial malls; and (3) development of policy and pro-      these three recommendations had been implemented.




8
SEC ONill-FEDERALSUPPLY
AND SERVICES
The Office of Federal Supply and Services (FSS) operates a       Other investigations resulted in the conviction of an FSS
Government-wide service and supply system that contracts         contractor for falsifying laboratory test results and the
for and distributes billions ofdollars worth ofsupplies, mate-   conviction of a city official for stealing Federal surplus
rials, and services for customer agencies each year. FSS also    property. In connection with this latter case, the city's
controls GSA's personal property program. In the first halfof    mayor agreed in lieu of indictment to a civil penalty of
Fiscalli'ar 1985, FSS obligated approximately $82.4 million      $2,000 and debarment from the donated property pro-
in direct operating expense appropriations. Estimated sales      gram.
through the General Supply Fund during the same period
were almost $946 million.
                                                                 B. Significant Audits and
Consistent with this level of activity, the OlG expended some
52,734 direct staffhours pursuing 459 audit and investiga-          Investigations
tive assignments. These statistics reflect 34 percent of total   This section summarizes significant internal audits and in-
OIG direct staffhours and approximately 36 percent of all        vestigations dealing with FSS. Significant preaward contract
work assignments.                                                audits are presented in Section C.

A. Overview of OIG Activity                                      GSA Official Convicted of Accepting
                                                                 Bribes
The OIG focused its internal audit coverage of FSS on            On March 21, 1985, a former GSA Deputy Regional Ad-
small order supply distribution operations, specifically         ministrator was sentenced to 2 years imprisonment and
self-service stores and customer supply centers. In thir-        fined $30,000. Sentencing followed his November 20,
teen audits issued this period, we presented our findings        1984 gUilty plea to charges of accepting approximately
in a variety of areas, including store operations, physical      $64,000 in bribes from an FSS contractor. He resigned
inventory practices, regional management procedures,             from GSA after pleading guilty.
and systems development activities. Additional reviews
are still in process.                                            The investigation stemmed from an allegation received
                                                                 in December 1983 from a GSA quality assurance em-
Notably, Hotline complaints relative to one self-service         ployee who had been given a gift by an FSS contractor.
store resulted in ajoint audit and investigation disclosing      Based on this incident and several other incidents indica-
overpriced merchandise, over $24,300 in missing inven-           ting possible fraudulent activity by this contractor, the
tory, and serious violations of procedures. FSS moved            OIG requested a Grand Jury investigation.
promptly to reassign the store manager to a less sensitive
position, suspend one employee, and implement our rec-           Faced with the prospect of possible criminal prosecution,
ommendations.                                                    the contractor provided information that indicated the
                                                                 Deputy Regional Administrator: had solicited bribes. The
The OIG also evaluated selected operations of the travel         contractor advised that since August 1980 he had been
management center program as well as the mUltiple                paying the Deputy Regional Administrator $1,000 a
award schedule program (MASP). A regional review of              month in return for no trouble with his GSA contracts.
the MASP identified multiple (:ontract awards for identi-        This agreement resulted from a meeting in which the
cal items at widely varying prices. In one instance, for         Deputy. Regional Administrator asked the contractor
example, customer agencies could have paid as much as            how much such peace was worth to him.
$348 or as little as $200 for the same item depending on
the vendor selected.                                             The FBI and the GSA OIG jointly investigated the allega-
                                                                 tions. With the contractor's assistance, the payments,
OIG contract audit coverage of FSS continued to empha-           which were halted when the investigation of the gift
size preaward reviews, especially in the MASP. We is-            began, were resumed. On April 9, 1984, the Deputy Re-
sued 80 contract audits recommending cost avoidances             gional Administrator accepted a $4,000 bribe from the
of $37.2 million and recoveries of approximately                 contractor. On August 9, 1984, he accepted a second
$435,500. Two pre award audits of cost and pricing data          $4,000 bribe. FBI and GSA OIG agents arrested the Dep-
accounted for almost $19 million of our recommended              uty Regional Administrator after witnessing the second
cost avoidance.                                                  payoff.
The OIG closed 144 investigative cases involving FSS pro-
grams, operations, or employees. One particularly signif-
                                                                 Improprieties at a Self-Service Store
icant investigation, conducted jointly with the FBI,             Based on several complaints received through the OIG
resulted in the conviction of a GSA DeputY,Regional Ad-          Hotline, the OIG initiated a joint audit and investigation
ministrator, who had also served as the Acting Assistant         of the operations of a GSA self-service store, assisted by
Regional Administrator for FSS and the Director of Qual-         the U.S. Air Force Office of Special Investigations. The
ity Control, on bribery charges. The Deputy Regional             complaints alleged theft, merchandise overpricing, mer-
Administrator, who resigned after pleading gUilty, re-           chandise repricing for physical inventory purposes, mis-
ceived approximately $64,000 in bribes from an FSS con-          management, and alcohol consumption on store prem-
tractor.                                                         ises by store employees during official duty hours.            9
     The OIG concluded that significant merchandise losses          highest contract price was $348 while the lowest was
     through theft and pilferage can occur and may already          $200. Thus, depending upon the vendor selected, cus-
     have occurred due to mismanagement, poor internal              tomer agencies using the GSA schedule could have need-
     controls, and violations of prescribed procedures. Nota-       lessly paid more than the lowest available price for the
     bly, the audit disclosed the unexplained disappearance of      item.
     over $6,300 worth of film and over $18,000 worth of
                                                                    At present, the only way to determine that different con-
     plywood. In addition, the OIG identified sales of over-
                                                                    tractors offer the same item is for the contracting officer
     priced merchandise, as well as misstatements in the
                                                                    to compare catalogues. During our review, we compared
     store's last physical inventory relative to both the value
                                                                    catalogues and found 74 identical items that were simul-
     and quantity of items in stock. Other deficiencies in-
                                                                    taneously offered on FSS and OIRM schedules awarded
     cluded: multiple store keys, allowing unrestricted access
                                                                    by headquarters. A comparison of the prices found that
     to the store; failure to change locks after the departure of
                                                                    on average the FSS schedule prices were 26 percent lower
     employees having access to store keys; hazardous ware-
                                                                    than the OIRM prices.
     house storage and housekeeping practices; inadequately
     marked stock; and consumption of alcohol on store              In our audit report dated January 15, 1985, we recom-
     premises by employees during official duty hours.              mended that the Assistant Regional Administrator, FSS,
                                                                    evaluate offers under the MASP to identify identical
     In the audit report dated November 21, 1984, we directed
                                                                    items, and assure that awards are only made to those
     10 recommendations to the Regional Administrator to
                                                                    firms offering the lowest prices for the identical items.
     correct the identified deficiencies and improve the pro-
                                                                    We also recommended actions to assure that catalogues
     gram. They included a recommendation to review the
                                                                    include all negotiated concessions and to improve con-
     store manager's actions in accordance with the GSA pen-
                                                                    tract file documentation. Relative to the duplication be-
     alty guide and take any appropriate disciplinary action.
                                                                    tween FSS and OIRM schedules and GSA and VA sched-
     The Regional Administrator concurred in all of the rec-        ules, recommendations will be separately directed to the
     ommendations. The January 31, 1985 action plan indi-           cognizant GSA officials in headquarters in a consolidated
     cated that 9 of the 10 recommendations had already been        report. This report will also recommend additional cor-
     implemented; the tenth-is scheduled for implementation         rective actions for the identified problems.
     by April 30, 1985. In addition, the store manager has
                                                                    Management's action plans for implementing the rec-
     been reassigned to a less sensitive position and one em-
                                                                    ommendations in the final report are due April 13, 1985.
     ployee was suspended for 5 days.
                                                                    GSA Contractor Convicted of Altering
     $176,776 in Civil Judgments                                    'Jest Results
     On January 9, 1985, a US. District Court entered               Based on a referral from GSA management, the OIG in-
     $176,776 in civil judgments for the United States against      vestigated an allegation that a GSA contractor had falsi-
     a Government contractor. The court found that the firm         fied laboratory test results on pressure-sensitive correc-
     had submitted false labor hour reports and overcharged         tion tape. The contractor, who has done over $1 million
     for parts during performance of two GSA contracts for          worth of business with GSA over the last 7 years, sup-
     the repair and rehabilitation of US. Air Force ground          plied almost $100,000 of unusable correction tape over a
     support equipment. Government payments under the               3-year period.
     contracts exceeded $4.25 million.
                                                                    On January 31, 1985, the company and its president pled
     The false disclosures and overcharges, first surfaced          gUilty to altering test results of materials supplied to GSA.
     through a postaward audit issued in June 1980, were            On March 25, 1985, the company was fined $10,000 and
     further developed by OIG investigators prior to referral       its president was sentenced to 5 years supervised proba-
     for criminal and civil actions. On April 14, 1981, during      tion, fined $ 5,000, prohibited from bidding on Govern-
     the criminal trial, the US. District Court directed a ver-     ment contracts for 5 years, required to pay $95,000 in
     dict of acquittal.                                             restitution, and ordered to perform 200 hours of com-
                                                                    munity service per year for 5 years.
     Duplication in MASP Contracts
     An internal audit of the MASP in one GSA region identi-        Stronger Internal Controls Needed in
     fied mUltiple contract awards for identical items at prices    Customer Supply Center System
     that differed significantly. Moreover, the audit disclosed
                                                                    GSA's Customer Supply Centers (CSCs) use an automated
     duplication between items offered on FSS and OIRM
                                                                    system to account for their inventories, record inventory
     schedules, as well as between GSA and Veterans Admin-
                                                                    and sales transactions, and provide data for CSC cus-
     istration (VA) schedules.
                                                                    tomer billings. OIG audit of this system surfaced a num-
     GSA regulations provide that when items are clearly            ber of problem areas.
     identical, only one contract is awarded and it is awarded
                                                                    We found internal control weaknesses in the system that
     to the firm offering the lowest net price. Our review
                                                                    could result in improper and undetected changes to mas-
     found that the region made at least two contract awards
                                                                    ter files, unauthorized entry to the system, and inade-
     for 249 items included in the schedule. For 74 of these
                                                                    quate inventory control. Also, management action was
     items, at least five contracts were awarded.
                                                                    necessary to consolidate system data, ensure timely CSC
     In some cases, the price differential between contracto~s      billings, and provide adequate physical security. Finally,
     was significant. On one item, for example, four separate       FSS needed to develop a more complete systems develop-
10   contracts were awarded, each at a different price. The         ment plan before expanding the system further.
At report issuance on February 1, 1985, FSS had already           $9.7 Million Avoided on Security Cabinet
taken decisive action to address our concerns about               Contract
changes to master files, data consolidation, esc billings,
inventory control, and physical'security. FSS manage-             In a preaward audit of cost and pricing data submitted in
ment had also committed themselves to addressing our              response to a solicitation for security cabinets and files,
other concerns during a post-implementation review of             we questioned 21.49 percent of the total proposed unit
the system. We are awaiting the action plans, which will          costs. Based on estimated contract sales of $70 million,
formalize corrective actions and intentions.                      this equates to a recommended cost avoidance of $15
                                                                  million.
City Official Convicted of Stealing Surplus                       In the October 25,1984 audit report, we advised the con-
Property                                                          tracting officer of unallowable and unallocable costs
                                                                  contained in the contractor's proposal, as well as inflated
Based on a referral from a State agency, the GSA DIG              escalation factors. The recommended reductions pri-
investigated allegations that the Mayor and the Superin-          marily involved the following cQst categories: material,
tendent of Public Works of a mid-western city converted           labor, and factory overhead escalation; general and ad-
Federal surplus property to personal use. The property,           ministrative expenses; and selling expenses.
acquired by the Government at a cost of $ 9,87l, included
refrigerators, a washer and dryer, an outboard motor,             On March 15,1985, the contract was awarded. As a result
furniture, and other miscellaneous items.                         of audit, a management commitment to avoid $9.7 mil-
                                                                  lion was achieved.
On November 9, 1984, the Superintendent of Public
Works pled guilty to three counts of theft through con-           Preaward Recommends $3.5 Million
version of Government property. On January 25, 1985,
he was sentenced to 18 months probation and ordered to
                                                                  Cost Avoidance
make restitution in the amount of $2,815. On the same             The DIG also evaluated pricing data submitted in re-
date, the Mayor entered into an agreement with the U.S.           sponse to a GSA solicitation for system furniture. Esti-
Attorney that resulted in the dismissal of the indictment         mated sales under the contract are $14.8 million.
against him. This agreement called for a civil penalty of
                                                                  The March 25, 1985 audit report recommended a cost
$2,000, restitution of $264, and prohibition of his ever
                                                                  avoidance of $3.5 million, principally because the firm
again participating in the Federal surplus property dona-
                                                                  offered discounts to its commercial customers that ex-
tion program.
                                                                  ceeded the discounts offered to GSA. Under the terms of
GSA management has advised the DIG that they will                 such a contract, the GSA is entitled to discounts equal to
determine the fair market value of the property involved          the best commercial customer in the same category.
and attempt additional recovery, if warranted.
                                                                  We are awaiting the contracting officer's position on the
                                                                  costs questioned.
c. Significant Preaward Audits
The OJG's preaward audit program provides information to
                                                                  D. Statistical Highlights
contracting officers for use in negotiating contracts. The pre-   The following table compares OIG activity and accom-
decisional, advisory nature of preaward audits distinguishes      plishments within FSS to the overall GSA totals for the
them from other audits.                                           period.




                                                                                                                                11
         Activity                                                                        FSS              All GSA

         Audit Reports Issued                                          101                                  326
         Recommended Cost Avoidance ......................... . $37,249,232                             $68,731,343
         Recommended Cost Recovery .......................... .       $436,492                           $2,725,116
         Management Commitments to Avoid Costs ................ . $19,700,641                          $114,032,556
         Management Commitments to Recover Funds .............. . $1,753,718                             $2,527,589
         Percentage of Recommended Cost Avoidance
           Agreed to by Management ........................... .        27%                                    52%
         Percentage of Recommended Cost Recovery
           Agreed to by Management ........................... .        23%                                    24%
         Unresolved Audits Older Than 6 Months
           (Excluding Preawards) ............................... .                                              3
         Implementation Reviews Finding
           Unimplemented Recommendations ..................... .                                               7
         New Investigative Cases ............................... .     122                                   336
         Criminal Referrals (Subjects) ............................ .   67                                   152
         Civil Referrals (Subjects) ................................              .       11                  15
         Administrative Referrals (Subjects) .......................              .      132                 354
         Suspension/Debarment Referrals (Subjects) ................               .       24                  41
         Indictments/Informations/Complaints .....................                .        16                 42
         Successful Criminal Prosecutions ........................                .        14                 30
         Civil Settlements/Judgments ...........................                  .         6                 11


     E. Significant Audits                                           On March 21, 1985, the report was resolved. Accordingly,
                                                                     we have just referred the audit to the Office of Audit
        From Prior Reports                                           Resolution for tracking of implementation actions.
     According to GSA's audit resolution system, the Office ofAu-
     ditResolution, Office of Policy and Management Systems, is      Quality Assurance
     responsible for ensuring implementation of resolved audit
     recommendations. Therefore, this office furnished the status    Period First Reported: April 1, 1984 to September 30, 1984
     information on implementation presented herein.                 Two OIG reviews identified defective material entering
     Two significant audits from prior Reports to the Congress are   the supply system without detection by contractor qual-
     unimplemented. The first was resolved late in this reporting    ity control systems or FSS plant surveillances. Two of the
     period, while the second is being implemented according to      three recommendations in one report have been imple-
     established milestones.                                         mented; one of the two recommendations in the second
                                                                     report has been implemented.
     Motor Vehicle Rental Contracts                                  The recommendation in the first report, involving train-
                                                                     ing opportunities for quality assurance personnel, is
     Period First Reported: April 1, 1984 to September 30, 1984
                                                                     scheduled for completion by June 1, 1985. The recom-
     This review of GSA motor vehicle rental contracts found         mendation in the second report, involving improve-
     that GSA is unable to enforce the mandatory use provi-          ments in surveillance inspections, was originally sched-
     sions of these contracts. The OIG made five recommen-           uled for completion by September 30, 1984. The action
     dations to correct the identified deficiencies.                 plan date has been renegotiated to September 30, 1985.




12
SECTION IV ........ INFORMATION RESOURCES
MANAGEMENT
The Office of Information Resources Management (OIRM)             Inactive Telephone lines
coordinates and directs a comprehensive Government-wide
program for managing and procuring automated data proc-           A regional review of TIAS, an automated system con-
essing (ADP) and telecommunications equipment and serv-           taining the inventory of leased telephone equipment,
ices. In the first halfofFiscalltar 1985, 01RM obligated over     disclosed inaccuracies in the telephone main line inven-
$13.8 million in direct operating expense appropriations. Es-     tory requiring immediate correctiv~ action. Many of
timated sales through the Federal Telecommunications Fund         these inaccuracies existed because Federal agencies
and the AD? Fund during the same period exceeded $457             failed to notify GSA of telephone service changes.
million.                                                          A computer-assisted analysis of telephone main line uti-
Collectively, the OIG expended some 20,164 direct staffhours      lization as of June 1984 found that as many as 12,000
pursuing 109 audit and investigative assignments. These fig-      main lines were either disconnected, not in use, or possi-
ures reflect 13 percent of total OIG direct staffhours and some   bly not needed. We estimate that the annual cost of these
9 percent of total work assignments.                              main lines to TIAS customers could be as much as $2.4
                                                                  million. The cost to GSA in terms of payments to local
                                                                  telephone companies could be as much as $1.8 million
A. Overview of OIG Activity                                       annually.
Within OIRM, contract audits comprised the preponder-             In our report dated January 9, 1985, we recommended
ance of OIG activity this period. We issued 40 audit re-          that the Assistant Administrator, OIRM, and the Assist-
ports recommending almost $ 5.2 million in cost avoid-            ant Regional Administrator, OIRM, have TIAS custom-
ances and almost $1. 9 million in recoveries. As in the           ers research the main lines identified in our analysis and
past, we emphasized preaward reviews of the MASP.                 identify those that should be terminated or restricted
                                                                  from having commercial service; monitor customer
The payback from this emphasis is dramatically demon-             agency action in this regard; and ensure that the TIAS
strated by a management commitment achieved this pe-              and telephone company inventories are adjusted. We
riod. Through the cooperative efforts of the OIG and              also recommended that OIRM conduct similar inventory
OIRM contracting officials, $40.8 million in costs were           reviews in other GSA regions, wherever possible and
avoided in a single procurement action for ADP equip-             feasible.
ment and software. This management commitment rep-
resents the largest cost avoidance ever achieved through          Management generally concurred with the report rec-
a single pre award audit performed by the GSA OIG.                ommendations. We are evaluating the action plans for
                                                                  implementation.
Internal audits of OIRM programs and operations evalu-
ated the acquisition and use of microcomputers, the pilot         TIAS Inventory Not Being Reconciled
computer store, and the Telephone Inventory Account-
ing System (TIAS). Notably, three regional reviews of             Another regional review of TIAS also identified oppor-
TIAS, the automated system used to verify over $200               tunities to improve its accuracy and reliability by per-
million in annual payments to telephone companies,                forming required annual inventory certifications. The
identified opportunities for the Government to reduce             OIG found that TIAS customers, including GSA, were not
Federal Telecommunications System (FTS) costs by im-              verifying their leased holdings against TIAS listings
proving the accuracy and reliability of TIAS.                     principally because many customers did not understand
                                                                  the complex codings used on the TIAS listings. As a re-
One TIAS audit identified that GSA may be paying as               sult, the TIAS, which is used to independently determine
much as $1.8 milljon for telephone lines that were either         the amounts due telephone companies and initiate GSA
disconnected, not in use, or possibly not needed. Sim-            billings to customer agencies, contained inaccurate data
ilarly, another audit identified potential overpayments of        that could have resulted in incorrect payments and inac-
$200,000 annually due to inventory discrepancies.                 curate customer billings.
These conditions primarily existed because customer
agencies, including GSA, failed to perform required an-
nual physical inventories.                                        A physical inventory of the holdings of 16 of the 3,450
                                                                  customers in this region identified 50 discrepancies, val-
During the period, the OIG closed 23 investigative cases          ued at $2,298 annually. We estimated that if this error
involving OIRM programs, operations, or personnel.                rate were constant for the remaining customers in this
These cases primarily involved employee misconduct,               region, GSA would be overpaying telephone costs by
theft of Government property, and allegations of contract         about $200,000 annually. Therefore, in our November 7,
fraud.                                                            1984 report, we recommended that the Assistant Re-
                                                                  gional Administrator, OIRM, ensure that all TIAS cus-
                                                                  tomer telephone inventories are validated annually;
B. Significant Audits                                             establish a telephone inventory training course and
This section summarizes significant internal audits dealing       make it available to all TIAS customers; and place em-
with OIRM operations. Significant preaward contract audits        phasis on reconciling the TIAS-computed payment and
are presented in Section C.                                       the telephone company invoice. We also recommended           13
     that the Regional Comptroller ensure that GSA conduct             million was achieved, based on estimated sales of $ 519. 5
     an annual physical inventory.                                     million. The total pricing concessions reflected in the
                                                                       awarded contract equal $62.3 million.
     Management generally concurred with the report rec-
     ommendations. We are evaluating the action plans for              Preaward Questions $1.6 Million in
     implementation.
                                                                       Proposed Cost
                                                                       A pre award audit of cost and pricing data submitted in
     c. Significant Preaward Audits                                    response to a solicitation for ADP technical support serv-
                                                                       ices questioned almost $1.6 million of the $19.5 million
                                                                       proposed by the contractor. The questioned costs re-
     The OIG's preaward audit program provides information to          sulted from adjustments to the direct labor, overhead,
     contracting officers for use in negotiating contracts. The pre-   and general and administrative rates proposed by the
     decisional, advisory nature of preaward audits distinguishes      contractor.
     them from other audits.                                           The October 15, 1984 report not only advised the con-
                                                                       tracting officer of the rates per audit, but also conveyed
                                                                       other pertinent information for consideration by the
     Expenditures of $40.8 Million Avoided                             contracting officer. First, the cost and pricing data pro-
     Through Preaward Audit                                            vided by the contractor were insufficient to justify for-
     A pre award audit of a pricing proposal for general pur-          ward pricing rates on a fixed price basis. Therefore, the
     pose ADP equipment and software found that the firm's             audit suggested a revision to the contract to provide for
     initial offer was incomplete because it did not clearly           renegotiating the rates at the end of the first year of the
     portray pricing concessions given to the firm's non-GSA           contract. Second, the contractor did not have sufficient
     customers. These pricing arrangements were signifi-               personnel to perform the contract work and would have
     cantly better than the terms offered to GSA.                      to hire many new employees if awarded the contract. In
                                                                       addition, the key personnel listed in the proposal to dem-
     The information on these concessions, summarized in               onstrate technical expertise might or might not be used
     our August 1, 1984 audit report, greatly enhanced the             under the contract, if awarded.
     contracting officer's negotiation position. In negotia-
     tions, the contracting officer obtained lower prices for          Resolution was achieved on March 31, 1985. As a result
     equipment rental than those originally offered, as well as        of audit, management committed itself to avoid almost
     better discounts on equipment purchases. In addition,             $1.6 million.
     this information resulted in a contracting officer deter-
     mination not to include some equipment items and cer-
                                                                       D. Statistical Highlights
     tain equipment rental provisions in the award.
                                                                       The following table compares OIG activity and accom-
     On October 22, 1984, the report was resolved. As a result         plishments within OIRM to the overall GSA totals for the
     of the audit, a management commitment to avoid $40.8              period.


          Activity                                                                         OIRM             All GSA
         Audit Reports Issued ................................. .        48                                   326
         Recommended Cost Avoidance ......................... . $7,182,485                                $68,731,343
         Recommended Cost Recovery .......................... . $1,857,694                                 $2,725,116
         Management Commitments to Avoid Costs ................ . $69,354,472                            $114,032,556
         Management Commitments to Recover Funds .............. .      $300,000                            $2,527,589
         Percentage of Recommended Cost Avoidance
           Agreed to by Management ........................... .         60%                                     52%
         Percentage of Recommended Cost Recovery
           Agreed to by Management ........................... .         15%                                     24%
         Unresolved Audits Older Than 6 Months
           (Excluding Preawards) ............................... .                                                3
         Implementation Reviews Finding
           Unimplemented Recommendations ..................... .                                                 7
         New Investigative Cases ............................... .       18                                    336
         Criminal Referrals (Subjects) ............................ .    19                                    152
         Civil Referrals (Subjects) ............................... .     1                                     15
         Administrative Referrals (Subjects) ....................... .   23                                    354
         Suspension/Debarment Referrals (Subjects) '" ............. .                                           41
         Indictments/Informations/Complaints ..................... .      1                                     42
         Successful Criminal Prosecutions " ...................... .                                            30
         Civil Settlements/Judgments ........................... .                                               11
14
E. Significant Audits                                           Improvements Needed in Computer
                                                                Security Program
   From Prior Reports
                                                                Period First Reported: October 1, 1983 to March 31,1984
According to GSA's audit resolution system, the GIG is re-      This March 30, 1984 review found that GSA computer
sponsible for ensuring resolution ofaudit recommendations,      systems are highly susceptible to loss through fraud, mis-
while the Office ofAudit Resolution, Office ofPolicy and Man-   use, and disaster, especially fire. Accordingly, we made
agement Systems, is responsible for ensuring implementation     20 recommendations for corrective action; 19 are imple-
ofresolved audit recommendations. That office therefore fur-    mented.
nished the status information on implementation presented
                                                                Action has been initiated to implement the last recom-
herein.
                                                                mendation, involving inclusion of concise security re-
Only one OIRM audit highlighted in a prior Report to the        quirements in all contractual agreements for ADP serv-
Congress is unimplemented; however, it is being imple-          ices. Final implementation action is scheduled for com-
mented in accordance with established milestones.               pletion by October 31, 1986.




                                                                                                                             15
     SECTION V -- OTHER GSA COVERAGE
     Other GSA services and staff offices, such as the Office of     In a review of Agency compliance with this Order, we
     Comptroller and the Office of Policy and Management Sys-        found that GSA has been generally successful in develop-
     tems, comprised the focus for the remainder of the OIG's ef-    ing, implementing, and administering an audit followup
     forts this period. These other offices generally support the    and resolution system. However, GSA components have
     administrative and management functions of GSA.                 not always met the requirements of the Order, thereby
                                                                     creating the potential for delays in collecting audit-re-
     The OIG devoted approximately 21, 795 direct staJfhours pur-
                                                                     lated debts and in resolving and implementing audit re-
     suing 144 audit and investigative assignments within these
                                                                     port recommendations. We did note, however, that com-
     other areas of GSA. These figures reflect 14 percent of total
                                                                     ponent compliance was improving as familiarity with
     OIG direct staJfhours and approximately 11 percent of all
                                                                     the procedures increased.
     work assignments.
                                                                     Accordingly; in our report dated February 28, 1985, we
                                                                     recommended that the Audit Followllp Official: issue a
                                                                     memorandum to GSA's components reinforcing the posi-
                                                                     tive actions already taken and emphasizing components'
     A. Overview of OIG Activity                                     ongoing responsibility to achieve timely resolution of
     With regard to the remaining GSA services and staff of-         audit report recommendations; review the status of re-
     fices, the DIG issued 20 interI)al audit reports evaluating     solved contract audit reports to assure that audit-related
     such diverse activities as Presidential library operations,     accounts receivable and interest accounts are being es-
     consultant contracts, travel vouchers, contract clearance       tablished in a timely manner; and evaluate identified
     functions, traveler's checks, audit resolution and follow-      areas of non-compliance with established procedures
     up, and imprest funds. The series of reviews evaluating         and revise the procedures if necessary. We also recom-
     audit resolution and followup and imprest funds were            mended that the current monthly implementation status
     particularly noteworthy.                                        report be expanded to include more complete implemen-
     We found that GSA has been generally successful in de-          tation information.
     veloping, implementing, and administering an audit res-         In response to the report, the Audit Followup Official
     olution and followup system that complies with the re-          expressed his commitment to continued improvements
     quirements of OMB Circular A-50, '1\udit Followup."             in the resolution process. However, in addressing our
     However, we did note that individual GSA components             specific recommendations, a staff office to the Audit Fol-
     have not always adhered to the system requirements, but         lowup Official did not concur in the recommendation to
     compliance was improving. Recognizing that non-com-             expand the monthly implementation status report. Their
     pliance could cause delays in collecting audit-related          position was that such expansion would not improve im-
     debts ana resolving and implementing corrective ac-             plementation actions. The DIG believes that additional
     tions, we attempted to focus management's attention on          status information will improve audit report implemen-
     identifying the specific procedures that are not being fol-     tation and that, at a minimum, expanded status reports
     lowed and revising them, if necessary.                          should be tested and evaluated. Therefore, we reaffirmed
                                                                     this recommendation in the final report.
     Relative to the imprest fund audits, we found that the
     amount of cash maintained in the funds often exceeded           We are awaiting the action plans for implementing our
     the amount necessary to cover normal disbursements. In          recommendations.
     addition, internal control and physical security weak-
     nesses jeopardized the integrity of fund operations. We
     believe that our recommendations to reduce the amount
     of cash maintained and strengthen controls will prevent
     misuse of these funds.                                          Imprest Funds
                                                                     OIG audits of ten imprest funds in seven GSA regions
                                                                     disclosed weaknesses in internal controls, inadequate
                                                                     physical safeguards, and unnecessarily high funding lev-
     B. Significant Audits                                           els. Internal control weaknesses, which were found in
     This section summarizes significant internal audits involv-     six funds, included: improper segregation of employee
     ing the programs and operations of the remaining GSA            duties; failure to perform regular reconciliations; and
     services and staff offices.                                     use of a common cash box by several cashiers. The phys-
                                                                     ical security problems, which were found at five imprest
                                                                     fund sites, inclucted: malfunctioning alarm systems; no
     Audit Resolution and Followup                                   alarm systems; failure to use the available in-building
     OMB Circular A-50 requires GSA to establish systems to          check cashing facility to reduce risk of in-transit theft;
     ensure the prompt and proper resolution and implemen-           and failure to regularly change safe combinations. Fi-
     tation of audit recommendations. GSA issued GSA Order           nally; the amount of cash maintained in five of the im-
     ADM 2030.2A to fulfill the OMB Circular A-50                    prest funds exceeded the amounts necessary to cover
     requirements.                                                   normal disbursements.

16
In ten reports issued between October 5, 1984 and
March 12, 1985, the OIG offered recommendations to '
                                                                c. Statistical Highlights
correct these and other deficiencies. Eight of these re-        The following table compares OIG activity and accom-
ports are resolved; we are awaiting action plans for the        plishments in other GSA areas to the overall GSA totals
other two reports.                                              for the period.

    Activity                                                                     Other-GSA            All GSA
    Audit Reports Issued ................................. .                         22                 326
    Recommended Cost Avoidance ......................... .                         $341,250         $68,731,343
    Recommended Cost Recovery .......................... .                                           $2,725,116
    Management Commitments to Avoid Costs ................ .                     $6,892,094        $114,032,556
    Management Commitments to Recover Funds .............. .                            $49          $2,527,589
    Percentage of Recommended Cost Avoidance
      Agreed to by Management ........................... .                           71%                 52%
    Percentage of Recommended Cost Recovery
      Agreed to by Management ........................... .                           0.1%                 24%
    Unresolved Audits Older Than 6 Months
      (Excluding Preawards) ............................... .                                               3
    Implementation Reviews Finding
      Unimplemented Recommendations ..................... .                            1                   7
    New Investigative Cases ............................... .                         34                 336
    Criminal Referrals (Subjects) ............................ .                      18                 152
    Civil Referrals (Subjects) ............................... .                        1                 15
    Administrative Referrals (Subjects) ....................... .                     33                 354
    Suspension/Debarment Referrals (Subjects) ................ .                       7                  41
    Indictments/Informations/Complaints ..................... .                        8                  42
    Successful Criminal Prosecutions ........................ .                        4                  30
    Civil Settlements/Judgments ........................... .                          2                  11



D. Significant Audits                                           Accounting for Stockpile Sales Receipts
   From Prior Reports                                           Period First Reported: April 1, 1984 to September 30, 1984
                                                                A review of the accounting methods for stockpile re-
According to GSA's audit resolution system, the OIG is re-      ceipts, coupled with a legal opinion rendered by GSA's
sponsible for ensuring resolution of audit recommendations,     Office of General Counsel, disclosed that at least $19.9
while the Office ofAudit Resolution, Office ofPolicy and Man-   million in stockpile receipts were incorrectly deposited
agement Systems, is responsible for ensuring implementation     in the u.s. 1J:easury. The report contained two recom-
ofresolved audit recommendations. That office therefore fur-    mendations; both are unimplemented.
nished the status information on implementation presented
                                                                The first recommendation, recovering the $19.9 million,
herein.
                                                                is scheduled for implementation by April 30, 1985. The
With regard to GSA services and staff offices other than PBS,   other recommendation, reviewing other stockpile sales
FSS, and OIRM, four significant audits from prior Reports to    contracts to identify other incorrect deposits, is to be im-
the Congress are unimplemented. One was resolved late in the    plemented by November 30, 1985.
reporting period; the others are being implemented according
to established milestones.
                                                                Improvements Needed at Presidential
                                                                Libraries
Implementation of the Federal
                                                                Period First Reported: April 1, 1984 to September 30, 1984
Managers' Financial Integrity Act
                                                                This consolidated report on Presidential library opera-
Period First Reported: April 1, 1984 to September 30, 1984
                                                                tions identified the need to improve internal controls
This review of GSA's 1982-1983 effort to satisfy the Fed-       over museum objects, library remittances, inventories of
eral Managers' Financial Integrity Act requirements dis-        items sold by the libraries, and physical security. Accord-
closed that it generally fell short of its intended goal. We    ingly, we made six recommendations for corrective ac-
therefore made 12 recommendations to improve the                tion; four have been implemented.
overall evaluation process.
                                                                The remaining recommendations involve development
On March 26, 1985, the report was resolved. Accordingly,        of procedures to: determine the actual number of paid
we have just referred the audit to the Office of Audit          museum admissions and assist libraries in the manage-
Resolution for tracking of implementation actions.              ment of inventories held for sale. The scheduled imple-
                                                                                                                               17
     mentation dates for the two recommendations are            port contained eight recommendations; six are imple-
     March 31, 1985 and June 30, 1985, respectively.            ,mented.
     Since the National Archives and Records Service (NARS),    The remaining two recommendations involve: adopting
     which oversees Presidential library operations, became     complete standards for all known environmental condi-
     a separate agency on April 1, 1985, implementation of      tions that can accelerate the deterioration of records, and
     these recommendations is now the responsibility of the     developing cost estimates for bringing the National Ar-
     National Archives and Records Administration (NARA).       chives Building up to the adopted standards for tempera-
     Accordingly, the file on this audit was transferred to     ture, humidity, particulates, and toxic gases. The original
     NARA on March 22, 1985. This is, therefore, our last       implementation date for both recommendations was
     status report on implementation of these recommenda-       August 31, 1983. Successive extensions to October 31,
     tions.                                                     1983, November 30, 1983, and December 31, 1986 were
                                                                granted. All action is now scheduled to be completed by
                                                                December 31,1986.
                                                                Since NARS, which oversees the preservation and protec-
     Prompt Action Needed to Preserve                           tion of historical documents, became a separate agency
     America's Recorded Heritage                                on April 1, 1985, implementation of these recommenda-
                                                                tions is now the responsibility ofNARA. Accordingly, the
     Period First Reported: October 1, 1981 to March 31, 1982
                                                                file on this audit was transferred to NARA on March 22,
     This audit found inadequate preservation and protection    1985. This is, therefore, our last status report on imple-
     of intrinsically valuable historical documents. The re-    mentation of these recommendations.




18
SECTION VI -- STATISTICAL SUMMARY OF
OIG ACCOMPUSHMENTS
The pn;vious sections ofthis report presented OIG activity and       efficiently and to recover $2,527,589. This latter figure
accomplishments by GSA service and staff office. In the pages        includes $181,776 resulting from civil settlements that
that follow, overall OIG accomplishments are comprehen-              involved OIG audit, investigative, and legal collabora-
sively reported. To facilitate cross-referencing, the GSA orga-      tion.
nizational orientation is maintained in these summary sta-
                                                                    The OIG opened 336 investigative cases and closed 383.
tistics. However, there is not necessarily a one-to-one corre-
                                                                    We referred 105 cases (152 subjects) for criminal prosecu-
spondence between the data reported by GSA organization
                                                                    tion, 12 cases (15 subjects) for civil litigation, and27 cases
and the overall statistics, because a portion of our work in-
                                                                    for further investigation by other Federal or State agen-
volved non-GSA operations.
                                                                    cies. Based on these and prior referrals, 41 cases (87 sub-
                                                                    jects) were accepted for criminal prosecution and'7 cases
                                                                    (II subjects) were accepted for civil litigation.
A. OIG Accomplishments
                                                                    Criminal cases originating from OIG referrals resulted in
During the reporting period, the OIG issued 328 reports,
                                                                    32 indictments/informations/complaints and 30 suc-
including 15 audits performed for the OIG by another
                                                                    cessful prosecutions. Civilly, OIG referrals resulted in 10
agency. These reports contained financial recommenda-
                                                                    civil complaints. Judgments were entered in 5 cases (7
tions totaling $ 71,456,459, including $68,731,343 in rec-
                                                                    subjects) and settlements were reached in 4 cases (4 sub-
ommendations for more efficient use of resources (cost
                                                                    jects). These actions resulted in determinations that
avoidance) and $2,725,1l6 in recommendations for the
                                                                    $696,249 is owed the Government. This figure includes
recovery of funds.
                                                                    $181,776 also reported as a management commitment to
Based on audit reports issued in this and prior periods,            recover funds, since it resulted from collaborative effort
management committed itself to use $1l4,032,556 more                involving OIG auditors, investigators, and attorneys.


                                          Table 1. Summary of OIG Audits
                                                                  Percentage          Recommended          Recommended
                  GSA                      Reports                  01 Total              Cost                 Cost
               Program                     Issued                   Audits              Avoidance            Recovery

    PBS
    -Internal                                   71                                     $      540,010         $ 248,708
    -Contract                                   84                                         23,418,366           182,222
                                              155                     47               $23,958,376            $ 430,930
    FSS
    -Internal                                   21                                     $        7,920         $      1,026
    -Contract                                   80                                         37,241,312              435,466
                                              101                     31               $37,249,232            $ 436,492
    OIRM
    -Internal                                    8                                     $ 2,000,000            $
    -Contract                                  40                                        5,182,485                1,857,694
                                               48                     15               $ 7,182,485           $1,857,694
    Other GSA
    -Internal . . . . . . . . . . . . .        20                                      $      11,439         $
    - Contract . . . . . . . . . . . .          2                                            329,811
                                               22                      6               $     341,250         $
    Non-GSA
    -Internal ............ .                                                           $                     $
    - Contract ......... . . .                   2
                                                 2                     1               $                     $

    TOTAL                                     328                    100               $68,731,343           $2,725,116

    TOTAL
    COSTS
    RECOMMENDED               $71,456,459
                                                                                                                                     19
      We referred 282 cases to GSA management for admin-            formed for the GSA OIG by the Defense Contract Audit
      istrative action. This total includes 17 case referrals (41   Agency.
      subjects) for suspension/debarment and 265 case refer-
      rals (354 subjects) for other administrative actions.          2. Audit Reports Resolved
      Based on these and prior referrals, management debar-
      red 12 contractors, suspended 2 contractors, repri-           Table 2 summarizes the universe of audits to be resolved
     .manded 33 employees, suspended 22 employees, termi-           by the OIG and GSA management during this period, as
      nated 21 employees, and demoted 3 employees.                  well as the status of those audits as of March 31, 1985.
                                                                    Notably, only 42 audits more than 6 months old were
     The following subsection presents detailed information         unresolved as of March 31, 1985; and 39 of them were
     on these and other quantifiable accomplishments.               pre award audits, which are not subject to the 6-month
                                                                    resolution requirement. Thus, only three audits were ac-
                                                                    tually overdue - a statistic that reflects creditably on
                                                                    GSNs audit resolution efforts.
     B. Summary Statistics                                          It should be noted that Table 2 does not include: reports
                                                                    issued by the OIG to other agencies (two this period); and
                                                                    reports excluded from the resolution system because
     I. Audit Reports Issued                                        they pertain to on-going investigations. As of March 31,
     Table 1 summarizes OIG audit reports issued this period        1985, seven audits (one issued this period, six issued in
     by GSA program area. The table includes 15 audits, rec-        prior periods) had been excluded from the resolution sys-
     ommending a total cost avoidance of $1,248,309, per-           tem for this reason.


                                             Table 2. Resolution of OIG Audits
                                                                      Reports With                 Total
                                                        No. of          Financial                Financial
                                                       Reports      Recommendations          Recommendations

          Reports To Be Resolved as of
          10/1/84
          - Less than 6 months old · .......             149               100                  $139,468,795
          - More than 6 months old ........               31                27                    18,399,487
          Reports Issued This Period .......             325               150                    69,791,822
          TOTAL TO BE RESOLVED · .......                 505               277                  $227,660,104
          Reports Resolved
          -Issued prior periods . . . . .......          138                   88               $135,752,925
          -Issued current period .. " .....              196                   72                 44,748,563
          TOTAL RESOLVED .............                   334               160                  $180,501,488
          Unresolved as of 3/31/85
          - Less than 6 months old · .......             129                   78               $ 25,043,259
          - More than 6 months old
            -Preaward ................                     39                  38                  22,094,358
            -Postaward ................
            -Internal ..................                    3                   1                       20,999
                                                                           -
          TOTAL UNRESOLVED ...........                   171               117                  $ 47,158,616




20
3. Resolution Decisions on Financial
                                                                  In accordance with GSA Order ADM 2030.2A, resolu-
   Recommendations                                                tion decisions on financial recommendations contained
Table 3 provides detailed information on'the 160 audits           in contJ;'act audit reports result in resolved cost avoidance
involving financial recommendations of $180,501,488               or recovery. Management commitments occur subse-
identified in Table 2 as being resolved this period. Nota-        quently, at the time of contract settlement. For internal
bly, $122,989,986 or approximately 68 percent was up-             audits, management commitments occur at the time of
held in the audit resolution process.                             resolution.



                              Table 3. Resolution Decisions on OIG Audits
                                           Recommended            Resolved        Recommended           Resolved
                  GSA                          Cost                 Cost              Cost                Cost
                Program                      Avoidance            Avoidance         Recovery            Recovery

    PBS
    -Internal ...............               $     1,642,631   $     1,701,570       $ 612,137          $ 391,943
    -Contract ..............                     28,454,868        27,428,712         191,841            119,134
                                            $ 30,097,499      $ 29,130,282          $ 803,978          $ 511,077

    FSS
    -Internal ...............               $     1,178,000   $    1,037,000        $                  $
    -Contract ..............                     35,113,940       28,810,505            393,611            342,869
                                            $ 36,291,940      $ 29,847,505          $ 393,611         $ 342,869

    OIRM
    -Internal ...............               $                 $                     $                 $
    -Contract ..............                    102,950,163       56,073,053            193,057            193,057
                                            $102,950,163      $ 56,073,053          $ 193,057         $ 193,057

    Other GSA
    -Internal .............. ,             $      7,012,011   $     4,212,011       $    48,702       $          49
    -Contract ..............                      2,710,527         2,680,083
                                           $      9,722,538   $     6,892,094     .$     48,702       $          49


    TOTAL                                   $179,062,140      $121,942,934          $1,439,348        $1,047,052


    TOTAL
    RESOLVED
    COSTS           $122,989,986




                                                                                                                                  21
      4. Contract Audit Settlements                                          commitments achieved in negotiations with contrac-
      Table 4 compares contract audit recommendations re-                    tors. Overall, management commitments on GSA audits
      solved in the audit resolution process with management                 represented 66 percent of the resolved amounts.


                                    Table 4. Summary of Contract Audit Settlements
                                                                  Avoidance                               Recovery
                      GSA                   No. of           Costs      Management                   Costs     Management
                    Program                Reports          Resolved    Commitment                  Resolved   Commitment

          PBS
          -Prior ..............                    57   $ 17,965,166         $ 15,746,686       $     105,615      $    55,909
          -Current ...........                     18        918,912              637,093              25,872           25,970
                                                   75   $ 18,884,078         $ 16,383,779       $     131,487      $    81,879
          FSS
          -Prior .......... , ...                  46   $ 42,987,588         $    7,485,498     $ 7,458,275        $1,750,265
          --:Current ...........                   14     20,884,089             11,178,143           3,453             3,453
                                               -
                                                   60   $ 63,871,677         $ 18,663,641       $ 7,461,728        $1,753,718
          OIRM
          -Prior ..............                    22   $ 64,812,644         $ 66,029,063       $ 1,944,938        $ 300,000
          -Current .. , ........                    8      3,325,409            3,325,409
                                                   30   $ 68,138,053         $ 69,354,472       $ 1,944,938        $ 300,000
          Other GSA
          -Prior ..............                     2   $    2,462,606       $    2,462,606     $                  $
          -Current ...........                      2          217,477              217,477
                                                    4   $    2,680,083       $    2,680,083     $                  $

          SUBTOTAL - GSA           .....      169       $153,573,891         $107,081,975       $ 9,538,153        $2,135,597
          Non-GSA           ;


          -Prior ..............                     4   $                    $                  $ 1,541,891        $
          -Current ...........
          SUBTOTAL - NON-GSA                       4    $                    $                  $ 1,541,891        $

          TOTAL     ..... , ........          173       $153,573,891         $107,081,975       $11,080,044        $2,135,597*

          TOTAL
          MANAGEMENT
          COMMITMENTS $109,217,572*
          'Includes $181,776 also reported under monetary results of civil actions.

      Drawing upon the information presented in Tables 3 and                 6.AuditFollo~p
      4, OIG audits involving GSA programs resulted in total
      management commitments to avoid $1l4,032,556 and                       GSA Order ADM 2030.2A places primary responsibility
      to recover $2,527,589.                                                 for followup on the implementation of resolved audit
                                                                             recommendations with the Audit Followup Official. The
                                                                             Office of Audit Resolution, Office of Policy and Manage-
      5. Recoveries                                                          ment Systems, acts as staff to the Audit Followup Official
      The General Accounting Office (GAO) recently recom-                    in this function.
      mended that OIG Reports to the Congress include data on                The OIG performs its own independent reviews of imple-
      actual monetary recoveries, in addition to management                  mentation actions on a test basis. This period, the OIG
      commitment information. Although such a require-                       performed 19 implementation reviews. By GSA service
      ment has not yet been instituted, the GSA OIG requested                area, they distribute as follows: 13 in PBS, 2 in FSS, 2 in
      data on actual audit recoveries from GSA's Office of Audit             OIRM, and 2 in other GSA areas.
      Resolution. Data for the period October 1, 1984 through
      March 31, 1985 were not available. However, between                    Management had successfully implemented all of the
      July 1, 1984 and December 31, 1984, Agency records                     recommendations contained in 12 of these reviews. In
      show that $1, 177,000 was recovered as a result of OIG                 seven instances, our recommendations were not fully
      contract audits and deposited in the Treasury.                         implemented.

22"
7. Investigative Workload                                              In addition to these cases, the OIG received and evaluated
Table 5 presents detailed information on investigative                 164 complaints/allegations from sources other than the
workload by case category. The OIG opened 336 cases                    Hotline that involved GSA employees and programs.
and closed 383 cases; only 19 of these cases were admin-               Based upon an analysis of these allegations, formal in-
istratively closed without referral.                                   vestigations were not warranted.


                                                  Table 5. Investigative Workload
                              Case                                 Cases Open     Cases             Cases            Cases Open
                             Category                                10/1/84      Opened            Closed             3/31/85

    White Collar Crimes ...................                           301            151              169                  283
    Other Crimes in GSA-Controlled Space ' " .                        112             61                89                  84
    Contractor Suspension/Debarment .......                            31             23                20                  34
    Employee Misconduct .................                              62             69                64                  67
    Other ..............................                               30             32                41                  21
                                                                                                      -
    TOTAL       ..... " ......................                        536            336              383                  489

Table 6 distributes the 336 new investigative cases                    opened fell within the white collar crime category. Most
opened this period (Table 5) by case category and GSA                  of the new cases (85 percent) involved PBS and FSS pro-
program area. Notably, almost 45 percent of the cases                  grams.



                                Table 6. Distribution of Cases Opened This Period
                               Case                                                                                    Other
                              Category                                PBS            FSS             OIRM                  GSA

    White Collar Crimes ...................                             65            70                6                  10
    Other Crimes in GSA-Controlled Space .....                          25            26                4                   6
    Contractor Suspension/Debarment ........                            13             9                1
    Employee Misconduct .............. ' " .                            47            11                4                   7
    Other ..............................                                12             6                3                  11
                                                                      -
    TOTAL ..............................                              162            122               18                  34


8. Referrals
The OIG makes three types of referrals to officials outside           The OIG also referred 12 cases involving 15 subjects to
GSA: criminal, civil, and investigative. During this pe-              either the Civil Division of the Department of Justice or a
riod, we referred 105 cases involving 152 subjects to the             U.S. Attorney for litigation consideration. The status of
Department of Justice or other authorities for pros-                  OIG civil referrals is as follows:
ecutive consideration. The status of OIG criminal refer-
rals is as follows:                                                                                                 Cases Subjects
                                                                         Pending Litigation Decision as
                                                  Cases Subjects           of 10/1/84 ...... . .. . . . . . . .       12         15
                                                                         Referrals ........ . . . . . . . . . . .     12         15
  Pending Prosecutive Decision as
                                                                         Declinations ......... . . . . . . .          9         11
    of 10/1/84 ........... . . . . .                37    103
                                                                         Accepted for Litigation .. . . . . . .        7         11
  Referrals .. . . . . . . . . . . . . . . . ..    10 5   152
                                                                         Pending Litigation Decision as
  Declinations ................                     66     96
                                                                           of 3/31/85 ................                 8         8
  Accepted for Prosecution ......                   41     87
  Pending Prosecutive Decision as                                     The OIG made 27 case referrals to other Federal or State
    of3/31/85 ................                      35     72         agencies for further investigation or other action.




                                                                                                                                      23
     9. Administrative Referrals and                                       10. Contractor Suspensions
        Actions Involving GSA                                                  and Debarments
        Employees                                                          The OIG continued its efforts to make the suspension
     Frequently, OIG investigations disclose nonprosecutable               and debarment process a more effective and more read-
     wrongdoing on the part of GSA employees, contractors,                 ily used administrative procedure. This period, the OIG
     or private individuals doing business with the GSA. The               referred 2 cases involving 5 subjects for suspension and
     OIG refers these cases to GSA officials for administrative            15 cases involving 36 subjects for debarment. As a result
     action.                                                               of these and prior referrals, management imposed 2 sus-
                                                                           pensions and 12 debarments. Management disapproved
     During the period, we referred 265 cases involving 354                3 suspensions and 3 debarments.
     subjects for administrative action. In addition, we re-
     ferred 144 cases involving 168 subjects to GSA officials              The status of OIG suspension and debarment referrals is
     for informational purposes only.                                      as follows:

     The status of OIG administrative referrals is as follows:                 Suspensions                             Cases Subjects
                                                                               Pending as of 10/1/84 . . . . . . . . .    2      7
                                                      Cases Subjects           Referrals .............. . . . . .         2      5
        Pending Decision as                                                    Action Completed ...........               2      5
          of 10/l/84 .. . . . . . . . . . . . . . . 81        109              Pending as of 3/3l/85 .........            2      7
        Referrals .. . . . . . . . . . . . . . . . .. 265     354
        Actions Completed. . . . . . . . . .. 270             350              Debarments                                 Cases Subjects
        Pending Decision as                                                    Pending as of 10/l/84 . . . . . . . . .      12     21
          of3/3l/85 ................                    76    113              Referrals ...... . . . . . . . . . . . . .   15     36
                                                                               Action Completed ...........                 10     15
     Of the 265 cases referred for administrative action this                  Pending as of3/3l/85 .........               17     42
     period, 152 cases (196 subjects) involved GSA employees.
     As a result of these and prior referrals, management took
     the following actions against GSA employees:                          11. Summary of Referrals
        Reprimands ................               33
                                                                               by GSA Program Area
        Suspensions ................              22                       Table 7 summarizes OIG referrals this period by type of
        Terminations ...............              21                       referral and GSA program area. Notably, 506 subjects
        Demotions .................                3                       were referred on criminal and administrative matters.



                                       Table 1. Summary of OIG Subject Referrals
                                  GSA                                                            Ad~inis-        Suspension!
                                Program                                Criminal       Civil .      trative       Debarment

         PBS ................ . . .. .... .. .. . . ..                    48               2        166                10
         FSS ................................                             67           11           132                24
         OIRM ...............................                             19            1            23
         Other GSA ...........................                            18           -
                                                                                           1         33                 7
         TOTAL     ..............................                        152           15           354                41


     12. Criminal and Civil Actions                                        were reached in 4 cases involving 4 subjects, while judg-
                                                                           ments were entered in 5 cases involving 7 subjects.
     Cases accepted for criminal prosecution during this and
     prior periods resulted in 32 indictments/informations/                Table 8 summarizes individual criminal and civil actions
     complaints and 30 successful prosecutions. Civil refer-               by GSA program area. In addition, there were 12 unsuc-
     rals from this and prior periods resulted in civil com-               cessful civil cases against 13 subjects and 3 unsuccessful
     plaints involving 10 individuals. In addition, settlements            criminal cases against 4 subjects.




24
                              Table 8. Summary of Criminal and Civil Actions
                                                       Indictments/
                       GSA                            Informations/              Successful            Settlements/
                     Program                            Complaints              Prosecutions            Judgments

    PBS ......................... .                          17                       12                       3
    FSS ......................... .                          16                       14                       6
    OIRM ........................ .                           1
    OtherGSA .................... .                           8                        4                       2
    TOTAL ....................... .                          42                       30                     11


13. Monetary Results                                               amounts do not necessarily reflect actual monetary re-
                                                                   coveries.
Table 9 presents the amounts determined to be owed the             In addition, the OIG identified for recovery $1,456,177 in
Government as a result of criminal and civil a:ctions. The         money and/or property during the course of its inves-
                                                                   tigations.


                                    Table 9. Criminal and Civil Recoveries
                                                               Criminal                Civil                Total

    Fines and Penalties ................... .                  $ 49,800             $ 15,000              $ 64,800
    Settlements and Judgments ............ .                                         489,875               489,875
    Restitutions ........................ .                       141,574                                  141,574
    TOTAL ............................ .                       $191,374             $504,875*             $696,249*
    "Includes $181,776 also reported as a management commitment to recover funds.



14. OIG Subpoenas                                                  tions when other reasonable measures fail. During the
The OIG views the use of subpoenas to be an effective              period, 13 instances met this criterion and OIG sub-
tool for obtaining information for audits and investiga-           poenas were issued.




                                                                                                                                25
     SECTION. VII . . . . . REVIEW OF LEGISLATION
     AND REGULATIONS
     The OIG is mindful of the importance of its legislated respon-       sions of Government employees, when certified by the
     sibility to review existing and proposed legislation and             Attorney General. We strongly supported this bill ex-
     regulations. Such reviews constitute an important vehicle for        cept for those provisions allowing jury trials; awards
     making recommendations that will increase economy and                of punitive damages; and awards of attorney fees
     efficiency in Government operations, as well as prevent fraud        and litigation costs to prevailing plaintiffs.
     and abuse.                                                         • Draft Bill No. 25, a bill clarifying the authority for ap-
                                                                          pointing and compensating experts and consultants.
     A. LegislationJReglliations                                          While agreeing that change was merited, we did not
                                                                          believe that this bill would be an effective vehicle.
        Reviewed                                                          We provided comments outlining specific deficien-
     During the period, the OIG reviewed 194 legislative mat-             cies in the proposal.
     ters and 187 regulatory initiatives. The OIG legal staff           • H.R. 1082, the Omnibus Intelligence and Security Im-
     primarily performed the legislative reviews, seeking in-             provements Act. We generally supported this bill, par-
     put from the other components as appropriate, while all              ticularly the provisions of Title II requiring pre-trial
     OIG staff offices shared the responsibility for regulatory           notice to the Government when a criminal defen-
     reviews.                                                             dant intends to assert the intelligence or law enforce-
                                                                          ment defense.
     B. Significant Comments                                          In conjunction with the President's Council on Integrity
                                                                      and Efficiency's legislative initiative for the 99th Con-
     The OIG provided significant comments on the follow-             gress, we provided comments regarding the reintroduc-
     ing legislative and regulatory matters:                          tion or enactment of the following matters:
       • Draft Bill No. 20, the Federal Protective Officers (FPOs)      • H.R. 3625, the Inspector General Act Amendments of
         Act of 1985, a bill to clarify and expand the law enforce-       1983. We supported this bill, especially those provi-
         ment authorities of FPOs. We expressed serious con-              sions providing for uniform pay levels for all stat-
         cerns about Section 401 of this bill because it appears          utory IGs and authorizing designated OIG personnel
         to grant FPOs investigative authority that overlaps              to administer oaths, affirmations, and affidavits.
         with that of the OIG and conflicts with existing GSA
         directives and the Inspector General Act.                      • S. 1566, the Program Fraud and Civil Penalties Act of
                                                                          1983, a bill to create an administrative remedy for civil
       • H.R. 502, a bill to prohibit the recording ofconversations       fraud cases developed by OlGs that are not prosecuted by
         on Federal telecommunications systems. We recom-                 the Department of Justice. We supported this latest
         mended revisions allowing the agency head to de-                 version of the bill because it: enables the Govern-
         velop guidelines for consensual monitoring and                   ment to recoup losses in those cases where the dollar
         giving independent authority to the Inspectors Gen-              amount is too small to merit prosecution; deters
         eral to conduct monitoring for law enforcement pur-              fraudulent conduct by those doing business with the
         poses. We also recommended that the definition of                Government; and represents a quicker and less ex-
         agency head include the head of an Office of Inspec-             pensive remedy than judicial action.
         tor General.
                                                                        • S. 829, the Comprehensive Crime Control Act of 1983, a
       • H.R. 1001, the Counterfeit Access Device and Computer           bill that would make the Government the sole defendant
         Fraud and Abuse Act of 1985. We supported this bill             in constitutional tort cases, thereby relieving individual
         because it would improve the Government's ability               Federal employees of any civil liability in such cases. We
         to deter and prosecute computer fraud.                          supported this bill, preferring it over H.R. 595 and
       • S. 492, the Law Enforcement and Intelligence Officer's          S. 775, because it preserves the affirmative defense of
         Tort Liability Protection Act. We strongly supported            "good faith qualified immunity," disallows trial by
         this bill making the Government the sole defendant              jury, and does not provide for an award of attorney
         in constitutional tort cases, when certified by the             fees and litigation costs to a prevailing plaintiff.
         Attorney General. We opposed the provisions of the
                                                                        • S. 2940, the Federal Computer Systems Protection Act of
         bill allowing an award of punitive damages and au-              1984, a bill to amend Title 18 of the United States Code.
         thorizing an award of attorney fees and litigation              We supported this bill, but questioned the ad-
         costs to prevailing plaintiffs.                                 visability of the provision authorizing the Attorney
       • H.R. 1252, a bill to amend the Omnibus Crime Control            General to delegate concurrent investigative au-
         and Safe Streets Act of 1968. We strongly supported             thority to other departments and agencies for com-
         this bill as it would increase the amount of death              puter-related offenses.
         benefits payable to the survivors of public safety of-
                                                                        • S. 774, Amendments to the Freedom of Information
         ficers killed in the line of duty.                              Act (FOJA). We strongly supported enactment of this
       • H.R. 440, a bill making the Government the sole defend-         bill, especially the provisions that permit agencies to
26       ant in constitutional tort cases involving acts or omis-        collect costs associated with processing FOIA re-
 quests; extend the time for agency responses in un-           supported this bill, especially the provisions allow-
 usual circumstances; expressly permit agencies to             ing law enforcement and investigative personnel
 withhold manuals and instructions used by inves-              (and members of their families) to receive a per diem
 tigators, auditors, or inspectors, when release could         allowance. when occupying temporary living ac-
 jeopardize investigations, audits, or inspections; and        commodations because of threat to life or property
 afford greater protection to information compiled             or fear that investigative interests may be compro-
 for law enforcement purposes .                                mised.
.. H.R. 5646, a bill to extend authority for IG awards for
                                                             • S. 1882, a bill to provide a statutory framework for Gov-
   Federal employee disclosures of fraud, waste, and abuse
                                                               ernment-wide debarment and suspension. We sup-
   until September 30, 1987. We supported'this exten-
                                                               ported the concept of a Government-wide debar-
   sion because the program requires more time to
                                                               ment and suspension program, but questioned
   prove its effectiveness.
                                                               whether this legislation is needed in view of the
• H.R. 4233, the Civilian Travel Expense Amendments, a         Government-wide system now in place and other
  bill raising the normal per diem maximum to $75. We          initiatives underway.




                                                                                                                           27
     SECTION vm -- OTHER OIG ACTIVITIES
     In a(idition to detecting problems in GSA operations, the OIG    Analysis of Preaward Lease
     is responsible for initiating actions to prevent fraud, waste,
     and abuse and to promote economy and efficiency. This sec-       Review Findings
     tion details the OIG program responding to these legislated      The preaward lease review program is a major compo-
     prevention responsibilities; presents our initiatives to max-    nent of the OIG's prevention program. As discussed in
     imize the effectiveness and efficiency of OIG operations; and    the following subsection, it provides for OIG review of
     details our involvement in projects sponsored by the Presi-      proposed lease actions involving total annual rentals of
     dent's Council on Integrity and Efficiency (PCIE).               $200,000 or more.
                                                                      This period, the OIG analyzed the findings surfaced in
                                                                      the 138 preaward lease reviews performed between Oc-
     A. OIG Prevention Program                                        tober 1982 and May 1984. Our objective was to identify
     The OIG prevention program is comprised of four ele-             patterns of problems as well as vulnerable areas in the
     ments that simultaneously focus on minimizing oppor-             lease award process. Analysis of the proposed awards
     tunities for fraud, waste, and abuse and promoting               identified two systemic problems: realty specialists are
     awareness among GSA employees. This four-pronged ap-             not documenting the lease files with all the information
     proach consists of:                                              needed to support the lease action, and supervisors are
                                                                      not adequately reviewing lease files.
        It   Defining areas vulnerable to fraud, waste, and abuse
             and assessing the degree of vulnerability;               In a December 7, 1984 report to the Commissioner, PBS,
                                                                      we recommended that: the problem areas identified by
        " Anticipating potential problem areas and perform-           the OIG be stressed in training courses given to realty
          ing front-end reviews that help to ensure that pro-         officers/specialists, and the list of deficiencies developed
          grams will operate within applicable laws, policies,        by the OIG be distributed to all realty officers/specialists
          and procedures;                                             with instructions on how to correct such errors/omis-
       • Educating GSA employees on the manifestations of             sions. The report was resolved on March 11, 1985.
         fraud and the mechanisms for reporting suspicions
         or allegations to the OIG; and                               2. Anticipation
       It    Communicating the OIG presence and establishing          OIG anticipation activities this period focused on review
             mechanisms that promote a dialogue between GSA           of proposed legislation and regulations (Section VII) and
             employees ana the OIG.                                   continued pre award coverage of GSA's leasing program.
                                                                      These activities stem from the belief that many of tomor-
     I. Definition                                                    row's problems can be avoided through decisive action.
                                                                      today.
     The OIG considers the identification of vulnerable areas
     to be a major prerequisite to the prevention of fraud,           The OIG's program for reviewing leases prior to award
     waste, and abuse. This period, OIG definition activities         provides front-end assurance that GSA is adhering to reg-
     included an operational survey and analysis of the find-         ulations and procedures before awarding selected leases
     ings surfaced through the preaward lease review pro-             involving annual rentals in excess of $200,000. The re-
     gram.                                                            views, although purely advisory in nature, limit oppor-
                                                                      tunities for fraud, waste, and abuse in the leasing area.
     Operational Survey of Belle Mead Supply                          The program achieved the following results during the
     Distribution Facility                                            reporting period:
     Operational surveys are limited scope reviews conducted            Lease proposals submitted for review .......        70
     by teams of auditors, investigators, and inspectors. They          Lease proposals reviewed .................          36
     are designed to follow up on activities that exhibited past        Lease proposals with major deficiencies .....        7
     vulnerability to fraud, waste, and abuse and assess the            Lease proposals with minor deficiencies .....       14
     current degree of vulnerability. Operational surveys de-           Lease proposals with no deficiencies ........       15
     velop referrals for in-depth review through conventional
     audits and investigations, as well as referrals to GSA           Some of the major deficiencies identified through OIG
     management for immediate corrective action.                      preaward adviSOry reviews included: the building to be
                                                                      leased did not meet PBS <'riteria for asbestos content; the
     Between October and November 1984, a survey team                 market survey and appraisal were outdated; negotiation
     evaluated overall depot operations, including the ade-           objectives were not documented in the lease file; and the
     quacy of physical security and fire safety measures, at the      tenant agency's space requirements had not been ob-
     Belle Mead Supply Distribution Facility in New Jersey.           tained or documented.
     The survey disclosed numerous and serious deficiencies
     regarding operations, physical security; and fire safety
     that were referred to GSA management. Management
                                                                      3. Education
     generally concurred with our recommendations or pro-             Integrity Awareness Briefings comprise the OIG's pri:
     vided additional information to clarify policies or pro-         mary vehicle for educating employees in the manifes-
28   cedures addressed in the report.                                 tations of fraud and abuse. Individual briefings explain
the statutory mission of the DIG and the functions ex-         ued this period. Interdisciplinary peer groups appraised
ecuted by each of our component offices. In addition,          the operations of the Philadelphia and Fort Worth field
through case studies and slides, the briefings expose GSA      audit and investigations offices, in accordance with our
employees to actual instances of white collar crime in         goal of reviewing each of our field offices on a 3-year
the GSA and other Federal agencies. They conclude with         cycle.
a presentation on bribery that teaches employees how to
                                                               In conjunction with this appraisal program, the DIG's
recognize bribery attempts; how to respond to them; and
                                                               Office of Policy, Plans, and Management Systems also
the employee's potential role in an ensuing investiga-
                                                               evaluates final internal audit reports. The evaluations,
tion.
                                                               which assess adherence to DIG policy and GAO audit
Since the inception of this program in 1981, over 4,960        report standards, serve to promote a definitive level of
GSA employees have attended Integrity Awareness Brief-         quality in our reports. Five report evaluations were is-
ings. This total includes the 870 Central Office and re-       sued this period.
gional employees attending 32 briefings this period.
This program is complemented by a separate education           2. Management Consulting Group
vehicle directed at newly appointed GSA management             On December 31, 1984, the Acting IG established a Man-
officials. Through a presentation entitled "The IG Story,"     agement ConSUlting Group, comprised of two of our
these officials learn the impetus behind the creation of       Regional Inspectors General for Auditing and an Audit
statutory IGs, the responsibilities and authorities vested     Division Director, to assess the OIG's organization and
in the IG, and the organizational structure used to ex-        staffing at headquarters. The objectives of the review
ecute these responsibilities. More importantly, "The IG        were to provide answers to the following questions:
Story" emphasizes the commonality of purpose shared
by management and the DIG in the pursuit of greater              • Is headquarters properly organized to best perform
Government economy and efficiency.                                 its duties?
This period, 12 officials attended Central Office presenta-      • Are services/functions unnecessarily being dupli-
tions of "The IG Story." Regional OIG officials likewise           cated?
conduct briefings in GSA's regions.
                                                                 • Are lines of reporting loperat ions clear and straight-
                                                                   forward?
4. Communication                                                 • Can changes be made that will make operations
A free flow of information between GSA employees and               more efficient and effective?
the DIG is a vital prevention and detection element. Re-
cognizing this fact, the DIG, as previously reported,          The 6-week study, which included interviews with GSA
                                                               DIG personnel nationwide as well as analyses of the
posted Hotline posters in all GSA buildings nationwide
to ensure that GSA employees and the public are aware of       headquarters structures of other DIGs, culminated in a
the DIG Hotline and its purpose. The DIG also continues        February 22, 1985 internal report to the Acting IG. The
to issue brochures on our Reports to the Congress so that      report and its recommendations are currently being
employees and the public are apprised of OIG activities        evaluated by the Acting IG.
and see the results-oriented nature of our work.               In keeping with GSA's plans to evaluate its regional orga-
The Hotline is a very significant communications device.       nizational structure, the DIG intends to review its re-
This period, we received 521 Hotline calls and letters. Of     gional structure before the end of the calendar year.
these, 147 complaints warranted further action. We also
received 14 referrals from the GAO and 25 referrals from       3. IGIS Task Force
other agencies that required further action. These 186         The Inspector General Information System (IGIS) is the
complaints/allegations were referred as follows:               computer-based management information and statis-
  Audits/Investigations .................... 78                tical reporting system of the GSA DIG. It has been opera-
  GSA Program Officials ................... 97                 tional since 1983 using outside computer facilities.
  Other Agencies ........................ II                   During the period, the DIG embarked on two initiatives
The remaining 374 Hotline complaints required no fur-          relating to IGIS:
ther action and were closed.
                                                                 • Procurement of state-of-the-art office automation
                                                                   equipment under GSA's "Big Buy." This equipment
B. OIG Management Initiatives                                      will enable the DIG to operate IGIS in-house, there-
                                                                   by resulting in substantial savings over the next 5
OIG management initiatives seek to promote economy and             years.
efficiency in OIG operations and to enhance coordination be-
tween the audit and investigations functions. Major ini-         • Establishment of an interdisciplinary IGIS task
tiatives are discussed in the paragraphs that follow.              force. The task force is in the process of reviewing
                                                                   IGIS to: ensure that it fully supports the DIG's infor-
                                                                   mation needs, and identify any unnecessary proc-
1. Field Office Appraisals                                         essing in terms of data elements stored and reports
The DIG's program for reviewing the economy, effi-                 generated. The recommendations are due to the Act-
ciency, and effectiveness of its component offices contin-         ing IG during the next reporting period.

                                                                                                                             29
     C. Projects Sponsored                                        munity for review and comment. As currently config-
                                                                  ured, the package consists of four primary sections ad-
        bythePCIE                                                 dressing general resources, audit accomplishments,
     The OIG continued to participate in interagency projects     investigative accomplishments, and prevention activi-
     sponsored by the PCIE. Specific involvement this period is   ties. It is envisioned that productivity factors will be cal-
     delineated by project in the paragraphs that follow.         culated over time so that trends can be developed and
                                                                  analyzed.
     1. Legislative and                                           The project team is currently revising the package based
        Regulatory Review                                         on the comments received. The final package should be
                                                                  issued during the next reporting period.
     Under the aegis of the PCIE Prevention Committee, the
     GSA OIG was the lead agency on the Legislative and
     Regulatory Review project. The objective of this project
     was to develop a compendium of best practices for OIG        4. Technical Experts
     application in the review of proposed legislation and reg-   The GSA OIG is participating in this PCIE Prevention
     ulations.                                                    Committee project designed to: determine the degree to
     The project was completed this period with the issuance      which OIGs require technical experts, and identify op-
     of the final report on November 13, 1984. The report         portunities for sharing OIG technical expertise, infor-
     presents analyses of the survey data, examples of success    mation, and advanced techniques. The project stems
     stories, and procedures in effect at selected agencies.      from the realization that OIGs are increasingly being
                                                                  asked to evaluate complex Federal programs that are
                                                                  highly technical in nature. In such evaluations, tradi-
     2. Auditor Training Subcommittee                             tional audit and investigative capabilities may no longer
     Under the aegis of the PCIE Training Committee, the          suffice.
     GSA OIG was the lead agency in the development of a
                                                                  This period, the project team developed and issued a
     training course entitled '1\Jlocating Audit Resources
                                                                  questionnaire to survey all of the OIGs on the use of
     Through Operations Risk Analysis." The training course
                                                                  technical experts and the feasibility of sharing technical
     teaches auditors how to apply the best principles of pub-
                                                                  expertise. Upon receipt and analysis of the responses,
     lic and private sector auditing in developing comprehen-
                                                                  individual DIGs may be interviewed prior to issuing a
     sive audit plans; planning and performing individual
                                                                  final report.
     audits; and evaluating the audit process.
     This period, editing ofthe comprehensive training man-
     ual on the course methodology was completed, and the         5. Review of Federal
     manual was submitted for printing. It will be distributed       Telecommunications System
     during the next reporting period.
                                                                     (FTS) Utilization
     3. Productivity Data                                         The GSA OIG is the lead agency for this PCIE review
                                                                  aimed at identifying ways to improve overall FTS opera-
        Collection Formats                                        tions and individual agency management of telecom-
     The GSA OIG is the lead agency on this PCIE project          munications resources. Nineteen agencies are participat-
     designed to: develop uniform OIG productivity factors,       ing in the review, including the Department of Defense
     and promote the use of recurring productivity analysis.      and most major civilian agencies.
     This project reflects the DIG community's emphasis on
                                                                  On. February 28, 1985, we hosted the initial planning
     improving productivity and thereby obtaining max-
                                                                  conference for the review; field work began in March.
     imum impact from its resources.
                                                                  The effort will culminate in individual agency reperts,
     On February 21, 1985, the team distributed the proposed      scheduled for issuance in August 1985, followed by a
     productivity data collection package to the PCIE com-        consolidated report.




30
APPENDICES
     APPENDIX I -- AUDIT REPORT REGISTER
     Assignment                                                                                           Date of
     Number       Title                                                                                   Report

     PBS          Contract Audits
     A40803       Pre award Evaluation of Pricing Proposal for Architect/Engineering Services:           10/0l/84
                  Thrres-Beauchamp-Marvel Y Asociados, Contract No. GS-02B-23216(NEG)
     A40303       Audit of a Claim Submitted by Yucca,    A Joint Venture, Lease No. GS-07B-I1339,       10/09/84
                  Docket Nos. 6768 and 7319
     A40838       Preaward Evaluation of Pricing Proposal: Woodbridge Construction Company,              10/11/84
                  Lease No. GS-03B-70043
     A40881       Determine Unpaid Amounts Due on Guard Contracts GS-04B-81523/81522/                    10/11/84
                  50362/82502/50329 With REA. Security and Investigative Agency, Inc.
     A40880       Postaward Audit of Contract Billings: NL Industries, Lease No. Plancor 1245, for the   10/12/84
                  Period 07/01/69 to 06/30/84
     A40879       Pre award Audit of Architect and Engineering Services Contract: Shepley, Bulfinch,     10/19/84
                  Richardson, and Abbott, Contract No. GS-llB-48008
     A40681       Preaward Audit of Lease Escalation Proposal: Brinkerhoff & Son Investment, Lease       10/2 5/84
                  No. GS-09B-77395
     A40723       Preaward Audit ofLease Escalation Proposal: Charles E. Smith & Associates, Lease       10/2 5/84
                  No. GS-03B-5603
     A40906       Preaward Evaluation of Pricing Proposal: Sylvester James and Sons Maintenance          10/25/84
                  Service, Inc., Kansas City, Kansas, Contract No. GS-06B-47523-01
     A40903       Pre award Audit of Change Order Proposal: Arctic Corner, Inc., Contract No. GS-        10/29/84
                  02P-23276
     A40872       Pre award Audit of Architect and Engineering Services Contract: VRG/W Associ-          10/30/84
                  ated, A Joint Venture, Contract No. GS-llB-47036
     A40835       Audit of Cost Reimbursable Contract: Booz, Allen & Hamilton, Inc., Contract No.        10/31/84
                  GS-00P-02253
     A40907       PreawardAudit of Cost or Pricing Data: Brown's Maintenance and Security Co., Inc.,     10/3l/84
                  Leavenworth, Kansas, Contract No. GS-06B-47546-01
     A40890       Preaward Audit of Cost or Pricing Data: Superb Maintenance, Solicitation No. GS-       11/02/84
                  04B-84657
     A50029       Preaward Audit of Architect and Engineering Services Contract: Energy Systems          1l/02/84
                  Engineering, Inc., Contract No. GS-llB-49001
     A50031       Pre award Audit of Lease Escalation Proposal: Victor Palmieri and Company, Incor-      11109/84
                  porated, Lease No. GS-07B-7029
     A40758       Preaward Audit of Cost or Pricing Data: J. Callaham Refuse Hauling, Inc., Contract     1l/14/84
                  No. GS-llC-40215
     A40710       Pre award Audit of a Claim for Increased Costs: E A. Bailey, Contract No. GS-          1l/15/84
                  04B-16561
     A50057       Preaward Audit of Architect and Engineering Services Contract: George Butler As-       1l/16/84
                  sociates, Inc., Kansas City, Missouri, Solicitation No. GS-06B-42860
     A40593       Preaward Audit of a Claim for Increased Costs: GrunJey-Walsh Construction Com-         1l/21/84
                  pany, Inc., Contract No. GS-llB-18334
     A40889       Pre award Audit of Architect and Engineering Services Contract: Daniel L. Dworsky,     11/26/84
                  FAIA and Associates, Inc., Project No. NCA 01200
     A40876       Pre award Audit of Lease Escalation Proposal: Melvin J. Powers, Lease No. GS-          1l/28/84
                  09B-77468


32
A40757   Pre award Audit of Cost or Pricing Data: J. Callaham Refuse Hauling, Inc., Contract     11/29/84
         No. GS-llC-40330
A40910   Audit of Lease Escalation Proposal: Convention Tower, Lease No. GS-03B-00643            11/29/84
A50073   Pre award Audit of Lease Escalation Proposal: William H. MacDonald and Thomas           11/29/84-
         M. Curtin, Lessors, Lease No. GS-lOB-04268
A40746   Preaward Audit of Lease Escalation Proposal: Northwestern Development Co.,              11/30/84
         Lease No. GS-03B-6521
A50018   Postaward Audit of Contract Billings: Superb Maintenance, Inc., Contract No. GS-        12103/84
         04B-81601
A40376   Preaward Evaluation of Lease Alteration Pricing Proposal: Northwestern Develop-         12104/84
         ment Corporation, Lease No. GS-IIB-40013
A50002   Preaward Audit of Cost or Pricing Data: Arrow General, Inc., Contract No. GS-03-84-     12104/84
         R-0023
A50094   Pre award Audit of Architect and Engineering Services Contract: Gove Associates,        12104/84
         Inc., Solicitation No. GS-05BC-90478
A50077   Pre award Audit of Small Business Administration 8(a) Pricing Proposal: Young           12/05/84
         Janitorial Services of Colorado Springs, Inc., Contract No. GS-08P-12003
A40862   Preaward Audit of Architect and Engineering Services Contract: General Physics          12107/84
         Corporation, Contract No. GS-IIB-47601
A50016   Pre award Audit of Value Engineering Change Proposal: 1erminal Construction             12/14/84
         Corporation, Contract No. GS-02P-23256
A50063   Postaward Audit of Multiple Award Schedule Contract: Parking Company of Amer-           12117/84
         ica for Period II/0I/8l to 10/31184
A50158   Preaward Audit of Lease Escalation Proposal: 'friple G. Investment, Lease No. GS-       12/18/84
         04B-23110
A50055   Pre award Audit of Lease Escalation Proposal: David Nassif Associates, Lease No. GS-    12119/84
         03B-5564
A40331   Preaward Audit of a Claim for Increased Costs: Wickham Contracting Co., Inc.,           12/20/84
         Contract No. GS-02B-17224
A40458   Preaward Audit of a Claim for Increased Costs: McCreary Metals, Inc., Subcontrac-       12121/84
         tor to Wickham Contracting Co., Inc., Prime Contract No. GS-02B-I7224
A40459   Pre award Audit of a Claim for Increased Costs: Total Carpentry Ltd., Subcontractor     12/21/84
         to Wickham Contracting Co., Inc., Prime Contract No..GS-02B-I7224
A40591   Audit of Contractual Provisions: Vigilantes, Inc., Subcontractor Under U.S. Small       12121/84
         Business Administration, Contract No. GS-02B-19710(NEG)
A50014   Preaward Audit of Lease Escalation Proposal: Tishman West Management, Lease             12/21/84
         No. GS-09B-73066
A50059   Preaward Audit of Architect and Engineering Services Contract: The Durrant              12126/84
         Group, Inc., Solicitation No. GS-05BC-90479
A40780   Pre award Audit of Lease Escalation Proposal: California State Automobile Associa-      12128/84
         tion, Lease No. GS-09B-75262
A40909   Preaward Audit of Lease Escalation Proposal: General American Life Insurance            01/04/85
         Company, Lease No. GS-08B-10849
A50100   Pre award Audit of Architect and Engineering Services Contract: Brown, Healey,          01/10/85
         Bock, EC., Cedar Rapids, Iowa, Contract No. GS-06B-52230
A50052   Preaward Audit of Lease Escalation Proposal: South Carolina Wildlife and Marine         01/11/85
         Resources, Lease No. GS-04B-15587
A40853   Preaward Audit of a Claim for Increased Costs: Eugene Iovine, Inc., on Behalf of Tide   01/15/85
         Electrical Construction Corp., Contract No. GS-02B-I7190
A40897   Preaward Audit of Cost or Pricing Data: Guardian Security Agency, Inc., Contract        01/16/85
         No. GS-UC-30l00
A40851   Pre award Evaluation of Quality Control Inspection and Testing Services Contract        01/18/85
         Pricing Proposal: Thrner Construction Company, Project No. NOR26500                                 33
     A50065   Preaward Audit of Architect and Engineering Pricing Proposal: Bohlin Powell             01118/85
              Larkin Cywinski, Prospectus Project No. IPA 88305
     A50144   Pre award Audit of Lease Escalation Proposal: Friendship Investment Company,            01118/85
              Lease No. GS-03B-5718
     A50178   Pre award Audit of Architect and Engineering Services Contract: Bogen, Johnston,        01123/85
              Lau & Jenal, PC, Solicitation No. 2PPC-CM-84-539
     A40877   Preaward Audit of a Claim for Increased Costs: Davis, Smith, Carter, and Rider, Inc.,   01125/85
              Contract No. GS-03B-89053, GSBCA Docket No. 6931
     A50141   Audit of Cost Reimbursable Contract: J & J Maintenance, Inc., Contract No. GS-          01125/85
              07B-21602
     A50103   Preaward Audit of Lease Escalation Proposal: Lincoln Partners, Lease No. GS-            01128/85
              08B-I0732
     A50157   Preaward Audit of Cost or Pricing Data: A & J Security Guard Service, Solicitation      01128/85
              No. GS-04B-85428
     A50164   Pre award Audit of Lease Escalation Proposal: Cohen Asset Management, Inc., Kan-        01131185
              sas City, Missouri, Lease No. GS-06B-14268
     A40840   Interim Audit of Cafeteria Contract: Service Systems Corporation, Contract No. GS-      02l01l85
              05B-42130
     A50096   Pre award Audit of Architect and Engineering Services Contract: Lee.J'horp Con-         02105/85
              sulting Engineers, Inc., Contract No. GS-UB-49022
     A50156   Preaward Audit of Architect and Engineering Services Contract: Arthur 1. Spaet &        02105/85
              Associates, P.C., Contract No. GS-02P-2340l
     A50196   Preaward Audit of Architect and Engineering Services Contract: Maniktala Associ-        02106/85
              ates, Inc., Solicitation No. 2PPC-CM-84-544
     A50212   Preaward Audit of Cost or Pricing Data: A to Z Maintenance Co., Solicitation No.        02106185
              2PPB-MV-24,240
     A50135   Preaward Audit of Lease Escalation Proposal: Heritage Heights Partnership, Lease        02107/85
              No. GS-08B-09887
     A50092   Preaward Evaluation of Lease Escalation Proposal: Haney-Claxton Developers,             02108/85
              Lease No. GS-04B-14592
     A50167   Pre award Audit of Architect and Engineering Services Contract: AME Associates,         02108/85
              Contract No. GS-05BC-90480
     A50235   Audit of Termination Proposal: J. Roland Dashiell & Sons, Inc., Contract No. GS-        02113/85
              03B-06193
     A40854   Pre award Audit of Lease Escalation Proposal: Carl W Swenson Co., Inc., Lease No.       02115/85
              GS-09B-75318
     A40107   Audit of Cost Reimbursable Contract: Donohoe Construction Co., Inc., Lease No.          02119/85
              GS-IIB-20054
     A50140   Preaward Audit of Lease Escalation Proposal: Koger Partnership, Lease No. GS-           02122185
              04B-15493
     A50250   Preaward Audit of Architect and Engineering Services Contract: Chrisman, Miller,        02125/85
              Woodford, Inc., Contract No. GS-04B-84254
     A50173   Pre award Audit of Lease Alteration Proposal: Federal Plaza Associates, Lease No.       03/05/85
              GS-05B-13381
     A50274   Pre award Audit of Architect and Engineering Services Contract: Wolfberg, Alvarez,      03/06185
              Taracido, and Associates, Contract No. GS-04B-84253
     A50307   Preaward Audit of Lease Escalation Proposal: Adlee Developers, Lease No. GS-            03/06185
              04B-20221
     A50308   Pre award Audit of Lease Escalation Proposal: Ocmulgee Fields, Inc., Lease No. GS-      03/06/85
              04B-15226
     A50214   Pre award Audit of Architect and Engineering Services Contract: Geier Brown             03/08/85
              Renfrow Architects, Contract No. GS-llB-39024
34
A50294    Preaward Audit of Cost or Pricing Data: United Guard Security, Inc., Solicitation No.   03/14/85
          RFP-FSS-9FCG-8S-02031
A50070    Pre award Audit of Architect and Engineering Services Contract: Colton/Lester Cor-      03/15/85
          poration, St. Louis, Missouri, Solicitation No. GS-06B-62210
A50071    Preaward Audit of Architect and Engineering Services Contract: The Christner Part-      03/15/85
          nership, Inc., St. Louis, Missouri, Solicitation No. GS-06B-62210
A50229    Preaward Audit of Cost or Pricing Data: Howard Security Services, Inc., Contract No.    03/22185
          GS-IIC-SOOOl
A50128    Preaward Audit of Change Order Proposal: E. J. Murray Company, Inc., Contract No.       03125/85
          GS-03B-88138
A50302    Pre award Audit of Small Business Administration 8(a) Pricing Proposal: Hyde's          03126185
          Security Services, Inc., Contract No. GS-llC-S0023
A50012    Pre award Audit of Lease Escalation Proposal: 6040 Company, Lease No. GS-               03127/85
          OSB-1291S
A50292    Pre award Audit of Architect and Engineering Services Contract: John 1. Kassner &       03127/85
          Co., Inc., Solicitation No. 2PPC-CM-84-S39
A50228    Postaward Audit .of Lease Alterations Costs: Fred Schnider Company, Lease No.           03128/85
          GS-llB-30047


PBS       Internal & Inspection Audits
A40898    Proposed Award of Lease : Lease No. GS-08P-11997, 11177 W. 8th Avenue, Lakewo'0d,       10/02184
          Colorado
A30716    Review of Roofing and Miscellaneous Repairs at the Federal Center, Building No.1,       10/03/84
          Battle Creek, MI, Contract No. GS-OSBC-82S19
A40896    Proposed Award of Supplemental Agreement No.1 to Lease No. GS-lOB-O S12 S, Uni-         10/03/84
          versity Plaza Building, Anchorage, Alaska
A40779    Interim Report on Review of Concession Operations                                       10/09/84
A4073 0   Review of the Quality of the Contract Guard Services at the Department of Com-          10/11/84
          merce, Patent and 1fademark Office
A50015    Preaward Lease Review: 719-13th Street, Nw, Washington, DC, Lease No. GS-               10/17184
          03B-80082
A40121    Review of GSA Region 2 Lease Award Procedures                                           10/18/84
A50021    Proposed Lease Extension: Lease No. GS-09B-82SlO, 4727 Wilshire Boulevard, Los          10/18/84
          Angeles, CA
A50024    Proposed Lease Award: Lease No. GS-09B-84696, 28S0 Shadelands Drive, Walnut             10/18/84
          Creek, CA
A40142    Audit of Jobs Bill Phase II, Office of Public Buildings and Real Property, Region S     10/19/84
A40294    Review of Administration of Major Lease Alterations and Lease Construction, Re-         10123/84
          gion 9
A40623    Review of the Assignment of Leased Space, Rider Building, Harrisburg, PA                10124/84
A50047    Proposed Lease Extension: Lease No. GS-OSBR-122276, Supplemental Agreement              10124/84
          No. 19, One North Wacker, Chicago, IL
A40842    Review of Controls Over Engineering and Space Assignment Drawings, Region 4             10129/84
A30749    Review of GSA Region 2 Buildings Maintenance Program                                    10/30/84
A40284    Review of Energy Conservation and Lighting Levels in Leased Space, Region 4             10/30/84
A40284    Review of Energy Usage in Leased, Owner-Serviced, Buildings for Which GSA Pays          10/30/84
          Utility Costs, Region 9
A40294    Procurement and Administration of Construction Work in Region 4 Leased Space            10/30/84
A50048    Pre award Lease Review (Lease Construction), Brockton Federal Office Building,          10/31/84
          Contract No. GS-OlB(PEL)-03440(NEG)
                                                                                                             3S
     A50062       Proposed Award of Lease No. GS-08P-11999, 711 Central Avenue, Billings, Montana       10/31184
     4D207Hl11l   Review of Agreement Between General Services Administration and Guest Serv-           10/31184
                  ices, Inc.
     A50067       Pre award Lease Review: 806 Connecticut Avenue, NW, Washington, DC, Lease No.         11/09/84
                  GS-03B-5044
     A50087       Preaward Lease Review: 1200 S. Eads Street, Arlington, VA, Lease No. GS-11B-400 52    11/14/84
     Nm088        Pre award Lease Review: 555 4th Street, Nw, Washington, DC, Lease No.                 11/15/84
                  GS-llB-40038
     A40479       Review of ADP Electricity and Space Costs, Chester Arthur Building, 425 Eye Street,   11/16/84
                  Nw, Washington, DC
     A30184       Review of Repairs and Alterations of Government-Owned Space, National Capital         11128/84
                  Region
     A50127       Preaward Lease Review: llOO Vermont Avenue, Nw, Washington, DC, Lease No.             11130/84
                  GS-11B-30019
     A40294       Review of Lease Alteration Projects, National Capital Region, General Services Ad-    12106/84
                  ministration, Washington, DC
     A40793       Summary Report of Preaward Lease Reviews, October 1982 Through May 1984               12107/84
     A50114       Preaward Lease Review: 1232 Eads Street, Arlington, VA, Lease No. GS-11B-40053        12107/84
     A40779       Review of Concessions Operations in Region 5                                          12113184
     A50155       Preaward Lease Review, Erieview Associates, 100 Erieview Plaza, Cleveland, Ohio,      12/13/84
                  Lease No. GS-05B-14113
     A50125       Proposed Award ofLease: Lease No. GS-04B-25442, Crawford Building and Annex,          12117/84
                  Atlanta, Georgia
     A40411       Review of Central Field Office Operations, Region 5                                   12118/84
     A50086       Preaward Lease Review: cms Building, Carolina Ave., Richmond, VA, Lease No. GS-       12120/84
                  03B-50011
     A40842       Public Buildings Service Needs to Review Their Policy on Microfilming Engineering     12121184
                  Drawings
     A50155       Pre award Lease Review: Erieview Associates, 100 Erieview Plaza, Cleveland, Ohio,     12121184
                  Lease No. GS-OSB-14113
     A40824       Review of the 450 Golden Gate Avenue Field Office Imprest Fund, Region 9              12127/84
     A50159       Review of Proposed Lease Award: Lease No. GS-09B-38825, U500 W. Olympic Blvd.,        12128/84
                  Los Angeles, CA
     A50111       Preaward Lease Review: Lease No. GS-04B-25439, 3001 NEExpressway, Chamblee,           12131/84
                  Georgia
     A50177       Review of Proposed Lease Award: Lease No: GS-09B-38570, 1333 Broadway, Oak-           01104/85
                  land,CA
     A50170       Proposed Lease Extension: Lease No. GS-05BR-10736,Supplemental Agreement No.          01107/85
                  7, One North Dearborn, Chicago, IL
     A40787       Review of the Procedures Used by the Real Estate Division to Establish Operating      01108/85
                  Costs and Real Estate Taxes for the Dickenson High and Low Rise Buildings, Wood-
                  lawn, Maryland
     A40154       Review of Fiscal Years 1983 and 1984 Funding of Department of 'Itansportation         01110/85
                  Delegation
     A50188       Review of Proposed Lease Award: Lease No. GS-09B-08127, 333 Market St., San           01110/85
                  Francisco, CA
     A50183       Pre award Lease Review: Belmont Building, 6709 Whitestone Road, Woodlawn,             01116/85
                  MD, Lease No. GS-03B-00682
     A50206       Preaward Lease Review: 900 South Washington Street, Falls Church, VA, Lease No.       01116/85
                  GS-llB-49917
     A50019       Proposed Award of Lease: Building K, 4175 Friedrich Lane, Austin, Texas, Contract     01122185
36                No. GS-07B-U906
A50205   Preaward Lease Review: 1301 New York Avenue, NW Washington, DC, Lease No.              01122185
         GS-UB-50012
A50213   Pre award Lease Review: Friendship No.6, 793 Elkridge Landing Road, Linthicum,         01124/85
         MD, Lease No. GS-03B-06166
A50175   Pre award Lease Review: 1650 Mission Street, San Francisco, CA, Supplemental           01125/85
         Lease Agreement No.1, Lease No. GS-09B-83349
A40824   Review of Maintenance of the Electrical Safety Systems at the Phillip Burton Federal   01128/85
         Building and U.S. Courthouse, Region 9
A40814   Review of Energy Consumption at Federal Buildings, 630 Sansome Street and 555          01129/85
         Battery Street, San Francisco, CA, Region 9
A50202   Proposed Award of Lease: Lease No. GS-04B-24308(NEG), Mid Memphis Tower,               01131/85
         1407 Union Avenue, Memphis, 1ennessee
A50225   Proposed Award of Lease Extension: 6300 Wilshire Blvd., Los Angeles, California,       02107/85
         Lease No. GS-09B-73821
A50262   Pre award Lease Review: 10 50 Connecticut Avenue, NW Washington, DC, Lease No.         02/12185
         GS-IIB-40054
A40255   Review of GSA's Lease Award Procedures                                                 02/15/85
A50280   Preaward Lease Review: Premier Building, 1725 Eye Street, NW Washington, DC,           02122185
         Lease Nos. GS-03B-90050 and GS-llB-10086
A50050   Review of Upper Parking Deck Repairs, Minton Capehart Federal Building, Indi-          02126/85
         anapolis, Indiana, Contract No. GS-05BC-82661
A40695   Review of the Region 4 Buildings Management Atlanta East Field Office                  02127/85
A40822   Review of Controls Over PBS Operating Equipment in Region 3                            02127/85
A50110   Review of Manual System for Monitoring Multi-Unit Leases, Region 5                     02128/85
A50218   Interim Report on Audit of Buildings Management Operations                             02128/85
A40779   Review of Concession Operations                                                        03/04/85
A50288   Preaward Lease Review: 1875 Connecticut Avenue, NW Washington, DC, Lease No.           03/04/85
         GS-IIB-1000l
A50297   Preaward Lease Review: 12709 Tvvinbrook Parkway, Rockville, MD, Lease No.              03/06/85
         GS-UB-500l4
A50007   Review ofthe Imprest Fund at the Buildings Management Field Office, San Juan,          03/12/85
         Puerto Rico
A50110   Review of Manual System for Monitoring Multi-Unit Leases                               03/21/85
A50312   Preaward Lease Review: Penn Place, 20 N. Pennsylvania Avenue, Wilkes-Barre, PA,        03/27/85
         Lease No. GS-03B-06457
A50301   Report on Pre award Lease Review, One Cleveland Center, Cleveland, Ohio, Lease No.     03/28/85
         GS-05B-14113
A40779   Review of Concession Operations, Region 1                                              03/29/85



FSS      Contract Audits
A40432   Audit of Claim for Lost Revenue: A&R (Anti-Rust, Inc.), Contract No. GS-4YSUR-         10/09/84
         20353
A40523   Pre award Evaluation of Price Proposal: A. B. Dick Company, Solicitation No. PGE-      10/09/84
         A4-75273-N-4-3-84
A40850   Pre award Audit of Contractor Eligibility Under Walsh-Healey Act: United Mercan-       10/19/84
         tile Company, Solicitation No. 9FCO-OLQ-M-A094!683
A40640   Pre award Audit of Cost or Pricing Data: The Mosler Safe Company, Solicitation No.     10/25/84
         FNP-Cl-1542-N-5-16-84
A40878   Preaward Audit of Cost or Pricing Data: Monaco, Solicitation No. 7PM-52512!            10/31184
         V517FC                                                                                            37
     A40733   Pre award Audit of Cost or Pricing Data: National Standards Association, Inc., Solic-   11/0l/84
              itation No. BO/FS-B-00479(NEG)
     A40904   Pre award Audit of Contractor Eligibility Under Walsh-Healey Act: H & S Haimes          11/05/84
              Enterprises, Inc., Solicitation No. 9FCO-OLQ-M-AI077
     A50030   Pre award Audit of Contractor Eligibility Under Walsh-Healey Act: Abby Sales, Inc.      1l/06/84
     A50032   Postaward Audit of Multiple Award Schedule Contract: Hughes Aircraft Company,           1l/06/84
              Contract No. GS-00S-45269 for the Period 08/01/82 to 07/31/83
     A40882   Pre award Audit of Multiple Award Schedule Contract: Wright Line, Inc., Solicita-       1l/07/84
              tion No. FNP-C4-1439-N-8-16-84
     A50061   PreawardAudit of Multiple Award Schedule Contract: Ebenreiter Woodworking Co.           11/13/84
              (EBCO), Solicitation No. FNPS-Sl-1526-N-I-26-84
     A40374   Postaward Audit of Multiple Award Schedule Contract: G. P. Technologies, Inc.,          1l/20/84
              Contract No. GS-00S-41402 for the Period 10/01/82 to 9130/83
     A40781   Postaward Audit of Multiple Award Schedule Contract: North American Philips             1l/20/84
              Service Lighting Corporation, Contract No. GS-07S-08991
     A50020   Pre award Audit of Cost or Pricing Data: Sargent & Greenleaf, Inc., Solicitation No.    1l/20/84
              AT/TC 19594
     A40683   Postaward Audit of Contract Billings: Payless Car Rental, Contract No. GS-OOS-          11/27/84
              64108 for the Period 04/28/83 to 04/30/84
     A50078   Postaward Audit of Multiple Award Schedule Contract: Edward Ochman Systems,             1l/28/84
              Contract No. GS-00S-68212 for the Period 02/01/84 to 01131/85
     A40786   Postaward Audit of Multiple Award Schedule Contract: Digilab, Division of Bio-Rad,      11/29/84
              Contract No. GS-00S-57371 for the Period 07/29/83 to 04/30/84
     A50013   Pre award Evaluation of Price Proposal: DeBourgh Manufacturing Company, Solic-          11/29/84
              itation No. FNP-S3-1598-N-1-9-84
     A50113   Pre award Audit of Contractor Eligibility Under Walsh-Healey Act: Bel-Mar Corpo-        11/29/84
              ration, Solicitation No. 9FCO-OLQ-M-AI073
     A50044   Pre award Audit of Multiple Award Schedule Contract: Varityper, Division of AM          1l/30/84
              International, Inc., Solicitation No. FGE-BI-75287-N-1O-5-84
     A40707   Pre award Audit of Cost or Pricing Data: Art Metal- USA, Inc., Solicitation No. FNP-    12104/84
              Cl-1542-N-5-16-84
     A50022   Pre award Audit of Cost or Pricing Data: 0. Ames Company, Solicitation No. FEN-FR-      12/05/84
              A0211-N-7-17-84
     A40696   Postaward Audit of Multiple Award Schedule Contract: Lista International Corpora-       12107/84
              tion, Contract No. GS-OOS-38319 for the Period 09/08/83 to 07/31184
     A50091   Preaward Audit of Cost or Pricing Data: MonArk Boat Company, Monticello, Arkan-         12/10/84
              sas, Solicitation No. lOPN-NES-0275
     A40806   Pre award Audit of Small Business Administration 8(a) Pricing Proposal: Delta Man-      12II 4/84
              ufacturing and Sales, Incorporated, Solicitation No. FNP-F5-1645-N
     A50046   Preaward Audit of Multiple Award Schedule Contract: Polaroid Corporation, Solic-        12114/84
              itation No. FGE-BI-75287-N-IO-05-84
     A50093   Preaward Audit of Multiple Award Schedule Contract: Polaroid Corporation, Solic-        12/14/84
              itation No. FGE-BI-75297-N-IO-05-84
     A50045   Pre award Audit of Multiple Award Schedule Contract: Picker International, Solic-       12/18/84
              itation No. FGE-Bl-75287-N-IO-5-84
     A40680   Preaward Audit of Multiple Award Schedule Contract Pricing Proposal: Leasamet-          12/19/84
              ric, Inc., Solicitation No. ATFS19360
     A50118   Pre award Audit of Cost or Pricing Data: Ametex Contract Fabrics, Solicitation No.      12119/84
              BO/FS-L-00493
     A50112   Pre award Audit of Multiple Award Schedule Contract: Douglass Industries, Inc.,         12/26/84
              Solicitation No. BO/FS-L-00493
     A50113   Preaward Audit of Contractor Eligibility Under Walsh-Healey Act: Bel-Mar Corpo-         12128/84
38            ration, Solicitation No. 9FCO-OLQ-M-AI073
A50l08   Pre award Audit of Multiple Award Schedule Contract: E.I. DuPont De Nemours &          01/02185
         Company, Solicitation No. FGS-X5-36432-N-9-U-84
A50119   Pre award Audit of Multiple Award Schedule Contrilct: Nilfisk of America, Inc.,        01/02185
         Solicitation No. 9FCO-OLG-M-AI096
A50051   Pre award Audit of Multiple Award Schedule Contract: Eastman Kodak Company,            01/11/85
         Solicitation No. FGE-BI-75287-N
A50095   Preaward Audit of Multiple Award Schedule Contract: Encyclopaedia Britannica,          01/11/85
         Inc., Solicitation No. BOIFS-B-00511
A50116   Pre award Audit of Cost or Pricing Data: Ebsco Carpet Mill, Solicitation No. FNP-      01/11/85
         F3-1653-N-4-30-84
A50028   Postaward Audit of Multiple Award Schedule Contract: Sutron Corporation, Con-          01/14/85
         tract No. GS-OOS-70140
A50187   Preaward Evaluation of Multiple Award Schedule Contract: Nautilus Sports/Medi-         01/17185
         cal Industries, Inc., Solicitation No. IOPN-NLS-0208
A50080   Preaward Audit of Multiple Award Schedule Contract, Verification of Commer-            01/18/85
         ciality Data: Hewlett-Packard Company, Solicitation No. FGS-P-36396-N-I-12-82
A50161   Pre award Audit of Cost or Pricing Data: Information Marketing International, A        01/18/85
         Ziff Davis Information Company, Solicitation No. BO/FS-BOO479(NEG)
A50142   Pre award Audit of Cost or Pricing Data: Munson Manufacturing, Inc., Solicitation      01/25/85
         No. IOPN-NES-0275
A50148   Preaward Evaluation of Multiple Award Schedule Contract: Caddylak Systems, Inc.,       01/30/85
         Solicitation No. FNP-C8-170l-N-IO-9-84
A50150   Preaward Audit of Cost or Pricing Data: L. Robinson Transfer and Storage Company,      01/31/85
         Inc., RFP No. WFCG-ED-N-1l67
A50166   Preaward Audit of Multiple Award Schedule Contract: Perkin Elmer Corporation,          01/31/85
         Solicitation No. FGS-23-36442-N-1l-23-84
A50186   Preaward Audit of Multiple Award Schedule Contract: ISCO, Inc., Lincoln, Ne-           01/31/85
         braska, Solicitation No. FGS-Z3-36442-N-1l-23-84
A50143   PreawardAudit of Cost or Pricing Data: Alliance Moving & Storage, Inc., Solicitation   02105/85
         No. WFCG-ED-N-1l61-10-23-84
A50106   Preaward Audit of Cost or Pricing Data: Milbar Corporation, Solicitation No. FEN-      02106/85
         ED-A3232-N
A50109   Pre award Audit of Multiple Award Schedule Contract: White Machine Company,            02107/85
         Solicitation No. FNP-C8-170l-N-1O-9-84
A50197   Audit of Cost Reimbursable Contract: Diversified Technical Services, Inc., Contract    02107/85
         No. GS-07B-1l736
A50208   Preaward Audit of Multiple Award Schedule Contract: Radiomatic Instruments and         02107/85
         Chemical Co., Solicitation No. FGS-23-36442-N-1l-23-84
A50l36   Pre award Audit of Small Business Administration 8(a) Pricing Proposal: Gallegos       02108/85
         Research Group, Contract No. GS-08F-37069
A50190   Preaward Audit of Multiple Award Schedule Contract: 1Tacor Instruments Austin,         02108/85
         Inc., Solicitation No. FGS-Z3-36442-11-23-84
A50242   Preaward Audit of Multiple Award Schedule Contract: Allied Analytical Systems,         02108/85
         Solicitation No. FGS-K-36415-N-1l-9-83
A50172   Preaward Audit of Multiple Award Schedule Contract: IBM Instruments, Inc., Solic-      02111/85
         itation No. FGS-Z3-36442-N
A50191   Pre award Audit of Multiple Award Schedule Contract: IBM Instruments, Inc., Solic-     02/11/85
         itation No. FGS-K-36415-N
A50189   Pre award Audit of Multiple Award Schedule Contract: Helena Laboratories, Solicita-    02121/85
         tion No. FGS-Z3-36442-N
A50185   Preaward Audit of Multiple Award Schedule Contract: Vitek Systems, Inc., Hazel-        02122185
         wood, Missouri, Solicitation No. FGS-Z3-36442-N-U-23-84
A50169   Pre award Audit of Multiple Award Schedule Contract: Spectra-Physics, Inc., Solic-     02126/85   39
         itation No. FGS-Z3-36442-N-Il-23-84
     A50256   Preaward Audit of Cost or Pricing Data: Fas-Frame, Inc., Solicitation No. 7PM-            02126/85
              52511/M517FC
     A50269   Pre award Audit of Multiple Award Schedule Contract: Instrumentation Laboratory;          02126/85
              Solicitation No. FGS-Z3-36442-N
     A50203   Preaward Audit of Multiple Award Schedule Contract: E.!. DuPont de Nemours &              02128/85
              Company, Solicitation No. FGS-Z3-36442-N-1l-23-84
     A50241   Preaward Audit of Multiple Award Schedule Contract: VG Instruments Incorpo-               02128/85
              rated, Solicitation No. FGS-K-36415-N
     A50278   Pre award Audit of Cost or Pricing Data: DeWald Northwest Containers, Solicitation        03/05/85
              No. 9FCO-OLJ-M-A1068/84
     A50207   Preaward Audit of Multiple Award Schedule Contract: Applied Biosystems, Inc.,             03/08/85
              Solicitation No. FGS-Z3-36442-N-1l-23-84
     A50320   Preaward Audit of Contractor Eligibility Under Walsh-Healey Act: Metco Interna-           03/13/85
              tional Corp., Solicitation No. 8FCG-51-500l5
     A50200   Pre award Audit of Multiple Award Schedule Contract: Pennwalt Corporation, Solic-         03/15/85
              itation No. 9FCO-OLS-M-All06/84
     A50211   Pre award Audit of Cost or Pricing Data: Davis Furniture Industries, Inc., Solicitation   03/15/85
              No. FNP-~5-1703-N-9-4-84
     A50240   Pre award Audit of Multiple Award Schedule Contract: LDC/Milton Roy, Solicitation         03/20/85
              No. FGS-Z3-36422-N-1l-23-84
     A50266   Preaward Audit of Multiple Award Schedule Contract: L K B Instruments, Inc.,              03/20/85
              Solicitation No. FGS-Z3-36442-N-1l-23-84
     A50264   Pre award Audit of Multiple Award Schedule Contract: Ortho Diagnostic Systems,            03/2l/85
              Inc., Solicitation No. FGS-Z3-36442-N-1l-23-84
     A50348   EvaluatiDn of Price Proposal Submitted in Response to Solicitation No. FNP-F5-            03/22185
              1708-N-12-17-84: Hoover Systems - Acoustical Screens in Color, Inc., Dallas, Texas
     A50251   Pre award Audit of Multiple Award Schedule Contract: Herman Miller, Inc., Solicita-       03/25/85
              tion No. FNP-C7-1483-N-5-14-84
     A50216   PreawardAudit of Cost or Pricing Data: Virco Manufacturing Corporation, Solicit a-        03/26/85
              tion No. FNP-S5-1703
     A50083   Audit of Multiple Award Schedule Contract, Verification of Commerciality Data:            03/27/85
              Hewlett-Packard Company, Contract No. GS-00F-57245
     A50243   Pre award Audit of Multiple Award Schedule Contract: Dionex Corporation, Solicita-        03/27/85
              tion No. FGS-Z3-36442-N-1l-23-84
     A50232   Postaward Audit of Multiple Award Schedule Contract: Charvoz-Carsen Corpora-              03/28/85
              tion, Contract No. GS-00S-38509
     A502H    Postaward Audit of Multiple Award Schedule Contract: Charvoz-Carsen Corpora-              03/28/85
              tion, Contract No. GS-00S-38510
     A50234   Postaward Audit of Multiple Award Schedule Contract: Charvoz-Carsen Corpora-              03/28/85
              tion, Contract No. GS-00S-58499
     A50265   Preaward Audit of Multiple Award Schedule Contract: Kratos Analytical Instru-             03/29/85
              ments, Division of Spectros, Inc., Solicitation No. FGS-Z3-36442-N




     FSS      Internal & Inspection Audits
     A40H6    Review of Self-Service Store Operations, Baltimore, Maryland                              10/02184
     A40788   Regional Management of the Commercial Ttavel Management Centers, Region 8                 10/U/84
     A40442   Review of Ttavel Management Centers, Region 9                                             10/3l/84
     A40309   Review of the Customer Supply Center, Kansas City, Missouri                               Il/02l84
40   A40407   Review of Proposed FSS Procurement for ADP Support Services                               1l/20/84
A40H5    Pricing Discrepancies, Unexplained Disappearances of Controlled Items, and Viola-    11121184
         tion of Prescribed Procedures at the Anchorage, Alaska Self-Service Store Corrobo-
         rates Hotline Allegations
A40441   Review of Operations at the Self-Service Store, San Francisco, California            11128/84
A50129   Review of the Observation of the Physical Inventory Count at the Customer Supply     12120/84
         Center, Norfolk, Virginia
A40441   Review of Operations at the Self-Service Store, San Diego, California                12126/84
A50008   Observation of Self-Service Store Inventory, San Juan, Puerto Rico                   12/27/84
A40318   Review of the Region 9 Quality Approved Manufacturer Agreement Program               12128/84
A40687   Review of the Physical Inventory and Inventory Reconciliation at the Self-Service    01108/85
         Store, Baltimore, Maryland
A40688   Review of Multiple Award Schedule Program Contracts in Region 4                      01/15/85
A40901   Observation of Physical Inventory at Self-Service Store No. 46, Chicago, Illinois    01116/85
A40068   Review of Systems Development of the Customer Supply Center                          02101/85
A40370   Review of Self-Service Store Operations, Department of Commerce Building             02128/85
A40669   Review of the Maintenance Control Center Disclosed That Enhancements Are Possi-      02/28/85
         ble to the Centralized Maintenance System by Improving Controls Over Procure-
         ment, Payment Processing, and Vehicle History Files, Region 10
A40888   Review of Boston Self-Service Store Inventory                                        03/01185
A40176   Review of the Centralized Household Goods Traffic Management Program, Central        03/07/85
         Office
A40441   Review of Regional Management of the Self-Service Store Program, Region 9            03/22185
A40072   Review of the Establishment of Subsistence Rates for High Rate Geographical Areas    03/29/85




OIRM     Contract Audits
A40610   Preaward Audit of Multiple Award Schedule Contract: Ampex Corporation, Data          10/05/84
         Systems Division, Solicitation No. GSC-KESCR-58
A40698   Pre award Audit of Multiple Award Schedule Contract: Hewlett-Packard, Solicitation   10/05/84
         No. GSC-KESA-0027
A40784   Pre award Audit of Cost or Pricing Data: OAO Corporation, Solicitation No.           10/15/84
         KECS-84-011
A40861   Preaward Evaluation of Subcontractor Pricing Proposal: Vanguard Technologies         10/18/84
         Corporation, RFP No. 6KT-84003-EP-N
A30333   Postaward Audit of Multiple Award Schedule Contract: Texas Instruments, Contract     10/26/84
         No. GS-OOC-0l413
A40765   Preaward Audit of Cost or Pricing Data: Vanguard Technologies Corporation, Inc.,     10/29/84
         Solicitation No. KECS-84-011
A500H    Pre award Audit of Cost or Pricing Data: GRIM Corporation, Contract No. GS-          10/29/84
         OOK-84-0l-S-0l78
A40902   Pre award Audit of Cost or Pricing Data: Watkins-Johnson Company, Solicitation No.   10/31/84
         GSC-KECS-CR-00028-5-21-84
A40790   Pre award Audit of Cost or Pricing Data: PECO Enterprises, Inc., Davenport, Iowa,    11107/84
         Solicitation No. 6KT-84003-EP-N
A40864   Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Computer      11109/84
         Dynamics, Inc., Solicitation No. GSA-3FC-84-N-OlO
A50090   Audit Report on Evaluation of Firm Fixed Price Proposal: Defense Communications      11109/84
         Division, ITT Corporation, Solicitation No. KETN-RC-84-008
A50099   Evaluation of Price Proposal: Racal Communications, Inc., Solicitation No. GSC-      11/15/84
         KESCR-00028
                                                                                                         41
     A50107   Audit Report on Evaluation of Price Proposal: OAO Corporation, RFP No. KECS-84-         11120/84
              OlO
     A50121   Audit Report on Evaluation of Initial Price Proposal: PRC Government Information        11128/84
              Systems, RFP No. KECS-84-0l0
     A50122   Audit Report on Evaluation of Fixed Labor Rate Proposal: Computer Sciences Cor-         11128/84
              poration, Applied Technology Division, RFP No. KECS-84-0lO
     A501H    Audit Report on 'Evaluation of Contract Pricing Proposal: Group Operations Sys-         12113/84
              terns Support Services, Inc., RFP No. KECS-84-012
     A50076   Pre award Audit of Cost or Pricing Data: Federal Systems, Inc., Solicitation No. GSC-   12114/84
              KESA-C-OOO 27-N-4-11-84
     A50082   Pre award Audit of Multiple Award Schedule Contract: Verification of Commer-            12131/84
              ciality Data, Hewlett-Packard Company, Solicitation No. GSC-KESA-C-00027-
              N-4-U-84
     A50117   Postaward Audit of Time and Material Contract: Telesynetics Corporation, Contract       01103/85
              No. GS-00K-84030
     A501S1   Audit Report on Evaluation of Initial Price Proposal: Tidewater Consultants, Inc.,      01l03/S5
              Solicitation No. KESC-84-0l2
     A40394   PostawardAudit of Multiple Award Schedule Contract: Cullinet Software, Inc., Con-       01109/85
              tract No. GS-00C-03332 for the Period lO/01/80 to 03/31/84
     A408S6   Preaward Audit of Multiple Award Schedule Contract: Household Data Services,            01110/85
              Inc., Solicitation No. GSC-KESCR-00028
     A40843   Preaward Audit of Multiple Award Schedule Contract: Honeywell Information Sys-          01111/85
              terns, Inc., Solicitation No. GSA-KESA-B-00025-N-12-16-83
     A50210   Evaluation of Price Proposal: Vanguard Technologies Corporation, RFP No.                01114/85
              KECS-84-0l2
     A50075   Pre award Audit of Multiple Award Schedule Contract, Verification of Commer-            01llS/85
              ciality Data: Ampex Corporation, Magnetic Tape Division, Proposed Renewal of
              Contract No. GS-00K-83-01S-0026
     A50219   Audit Report on Evaluation of Price Proposal: ISC, Inc., RFP No. GSC-CDPCS-A-           01122185
              00004-N-5-20-82
     A50220   Audit Report on Evaluation of Contract Pricing Proposal: Arthur Young & Com-            01123/85
              pany, RFP No. KECS-85-001
     A50147   Pre award Audit of Cost or Pricing Data: Aire-Sciences, Inc., Solicitation No. GSC-     01124/85
              KESCR-00028-N-5-21-84
     A50244   Audit Report on Evaluation of Price Proposal: Kentron International, Inc., Tech-        01129/85
              nical Services Division, Solicitation No. 9FC6-0SD-N-A0832/84
     A50245   Audit Report on Evaluation of Cost Plus Fixed Fee Proposal: Martin Marietta Data        01129/85
              Systems, Solicitation No. 9FCG-OSD-N-A0832/84
     A50263   Report on Evaluation of Contract Pricing Proposal: RFP No. KECS-85-00l, Amer-           02106/85
              ican Management Systems (AMS), Washington, DC
     A50151   Pre award Audit of Cost or Pricing Data: Information Control, Inc., Kansas City,        02108/85
              Missouri, Solicitation No. 6KS-8400l-CG-N
     A4080S   Audit of Termination Proposal: Systems and Facilities Corporation, Contract No. GS-     03/05/85
              00C-40018
     A50223   Pre award Audit of Cost or Pricing Data: Booz-Allen & Hamilton, Inc., Contract No.      03/06/85
              GS-00K-840 3-C-0001
     A50204   Pre award Audit of Multiple Award Schedule Contract: Dynatech Data Systems,             03/12185
              Solicitation No. GSC-KESA-G-00028-N-12-11-84
     A50350   Audit Report on Evaluation of Cost Plus Fixed Fee Proposal: Advanced Technology,        03/26/85
              Inc., Solicitation No. KECS-85-001
     A50300   Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Aquidneck        03/27/85
              Management Associates Ltd., Solicitation No. KECS-85-005

42
A50194   Preaward Audit of Multiple Award Schedule Contract: AT&T Information Systems,        03128/85
         Solicitation No. GSC-KESA-G-00028-N-12-11-84
A50276   Pre award Audit of Multiple Award Schedule Contract: Leasametric, Inc., Solicita-    03129/85
         tion No. GSC-KESA-G-00028-N-12-11-84
A50HI    Pre award Audit of Contractor Eligibility Under Walsh-Healey Act: Technology Serv-   03129/85
         ices, Inc.


OIRM     Internal & Inspection Audits
A40398   Review of GSA's Pilot Computer Store                                                 10/15/84
A40349   Acquisition, Use, and Management of Microcomputers, Region 8                         10/23/84
A40180   Review of the Telephone Inventory Accounting System, Region 4                        11107/84
A40349   Review of Acquisition, Use, and Management of Microcomputers in Region 2             12131184
A30771   Second Interim Report on Review of Telephone Inventory Accounting System             01109/85
A40727   Interim Report - Appearance of a Conflict of Interest by FSS Contracting Officer     01116/85
A40731   Review of Supporting Documentation for a Requirements Contract of Software           01129/85
         Development Services (Solicitation No. KECS-84-0l1)
A40180   Review of the Telephone Inventory Accounting System, Region 7                        03129/85

Other
GSA      Contract Audits
A40664   Pre award Audit of a Claim for Increased Costs: Fluidics, Inc., Contract No. GS-     10/29/84
         02B-17814
A30281   Review Accounting Statement Related to Claim Submitted by Federal Plaza Associ-      12106/84
         ates, Contract No. GS-05B-13381

Other
GSA      Internal & Inspection Audits
A40825   Review of the Imprest Fund, Region 3                                                 10/05/84
A40815   Review of Imprest Fund, Region 5                                                     10/15/84
A40826   Review of the Regional Office Imprest Fund, Region 9                                 10/17/84
A40827   Review of Imprest Fund Operations, Region 6                                          10/19/84
A50039   Review of Fleet Management Center, Las Vegas, Nevada, Imprest Fund, Region 9         11102/84
A40812   Review of Finance Division Imprest Fund, Region 8                                    11106/84
A40883   Review of Finance Division Traveler's Check Fund, Region 8                           11106/84
A30449   Review of Allegations Regarding the GSA Board of Contract Appeals                    11108/84
A40818   Review of the Imprest Fund, National Capital Region                                  12110/84
A40836   Review of the Finance Division Imprest Fund, New York, New York, Region 2            12131/84
A40869   Review of Finance Division Accounting Controls on Traveler's Checks                  01108/85
A40616   Review of the Contract Clearance Function Performed by the Office of Project Con-    01130/85
         trol and Oversight Disclosed Need for Improved Documentation, Defined Scope, and
         Supervisory Reviews
A40775   Final Report on Controls Over the Reporting of FY 1984 Consultant CQntracts          02101185
A50163   Review of Imprest Fund Operations, 601 East 12th Street, Kansas City, Missouri       02104/85
A50171   Review of Travel Vouchers                                                            02113/85
A40865   Review of Regional Payroll Operations, Region 3                                      02127/85
A40228   Review of GSA's Audit Resolution and Followup System                                 02128/85

                                                                                                         43
     A40332        Review of Operations of the Gerald R. Ford Library                                 02128/85
     A40686        Review of Physical Inventory of Museum Objects at the Harry S. Truman Library,     03/05/85
                   Independence, Missouri
     A40nl         Review of Fleet Management Center Payments                                         03/21/85




     Non-GSA       Contract Audits
     2H20l037707   Report on Postaward Audit: Abbott Laboratories, Hospital Products Division, Con-   10/05/84
                   tract Nos. V797P-5715E, 5819E, 5595E and 5474F
     A40257        Audit of Cost Reimbursable Contract: PEPCO, Solicitation No. PI-81-005-A-820       01107/85




44
APPENDIX IT -- DELINQUENT DEBTS
GSA's Office of Comptroller provided the information pre-      • In March 1985, GSA commented on the Department
sented herein.                                                   of'freasury/OMB "Draft Guidelines on Information
                                                                   to Be Reported to Credit Reporting Bureaus." These
                                                                   guidelines are designed to achieve uniformity in
GSA Efforts to                                                     credit reports made to commercial and consumer
                                                                   reporting bureaus by Federal agencies and increase
Improve Debt Collection                                            the usefulness of these reports. GSA's computer tape
During the period October 1, 1984 through March 31,                input to credit bureaus will be designed in accor-
1985, specific activities undertaken by the GSA to im-             dance with the final Department of 'freasury10MB
prove debt collection and reduce the amount of debt                guidelines.
written off as uncollectible have been in the areas of         • In March 1985, GSA's Office of General Counsel is-
upgrading collections functions, debt management, and              sued the final draft of "Collection of Claims Owed to
credit reporting. Specifically:                                    the United States." These GSA regulations, which
  • In November 1984, GSA provided its accounts re-                implement the Debt Collection Act of 1982, are
    ceivable branches detailed written instructions for            being reviewed by the Department of Justice and
    assessing interest, penalty, and administrative costs          OMB prior to publication in the Federal Register.
    against delinquent debts. These procedures will be-
    come operational on the date that GSA's regulations
    to implement the Debt Collection Act of 1982 are
                                                             Non-Federal Accounts
    published in the Federal Register.                       Receivable
  • In February 1985, OMB assigned FSS responsibility        Because GSA utilizes manual reporting systems for its
    for Government-wide contracting for debt collec-         non-Federal accounts receivable, data for the period
    tion services. GSA's Office of Finance provided infor-   October 1, 1984 through March 31, 1985 were not avail-
    mation on debt management to the FSS contracting         able at the time of publication of this report. Six-month
    officer to facilitate development of the procurement     data for the period June 30, 1984 through December 31,
    action for debt collection services.                     1984 are therefore provided.


                                                           As of                As of
                                                        June 30, 1984      December 31, 1984          Difference

    Total Amounts Due GSA .............. .              $102,533,709           $81,194,408          $21,339,301
    Amount Deliquent                                    $ 13,394,081           $18,391,869          $ 4,997,788

    Total Amount Written Off as Uncollectible
      Between 6/30/84 and 12/31/84 .......              $706,074




                                                                                                                           45
